Nos. 19-368 & 19-369
IN THE

Supreme Court of the United States
_________

FORD MOTOR COMPANY,
Petitioner,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al.,
Respondents.
_________
FORD MOTOR COMPANY,
Petitioner,
v.
ADAM BANDEMER,
_________

Respondent.

On Writs of Certiorari to the
Supreme Courts of Montana and Minnesota
_________
JOINT APPENDIX
_________
SEAN MAROTTA
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
(202) 637-4881
sean.marotta@hoganlovells.com
Counsel of Record for
Petitioner

DEEPAK GUPTA
GUPTA WESSLER PLLC
1900 L Street, N.W.
Suite 312
Washington, D.C. 20036
(202) 888-1741
deepak@guptawessler.com
Counsel of Record for
Respondents

PETITIONS FOR WRITS OF CERTIORARI FILED:
SEPTEMBER 18, 2019
CERTIORARI GRANTED: JANUARY 17, 2020

TABLE OF CONTENTS
Page
Relevant Docket Entries in Ford Motor Co. v.
Montana Eighth Judicial District Court,
No. 19-368:
Supreme Court of Montana Docket
(No. OP 19-0099)............................................... 1
District Court Docket (No. ADV-18-0247(b)) ........ 2
Relevant Docket Entries in Ford Motor Co. v.
Bandemer, No. 19-369:
Court of Appeals and Supreme Court of
Minnesota Docket (Case No. A17-1182) ......... 4
District Court Docket (Minn. D. Ct. Todd
Cty. No. 77-CV-16-1025) .................................. 7
Relevant Pleadings in Ford Motor Co. v.
Montana Eighth Judicial District Court,
No. 19-368:
Petition for Writ of Supervisory Control,
filed February 8, 2019:
Exhibit A – Plaintiff’s Complaint and
Demand for Jury Trial, filed May 2,
2018.............................................................. 9
Exhibit B – Affidavit of Eric Kalis, filed
July 6, 2018 ............................................... 40
Exhibit C – CARFAX Vehicle History
Report ........................................................ 44
Relevant Pleadings in Ford Motor Co. v.
Bandemer, No. 19-369:
Complaint, filed September 2, 2016 .................... 58

(i)

ii
TABLE OF CONTENTS—Continued
Page
Ford Motor Company’s Response to Plaintiff’s First Set of Jurisdictional Request
for Admissions, dated December 12,
2016 ................................................................. 66
Ford Motor Company’s Response and Objections to Plaintiff’s First Set of Jurisdictional Request for Production, dated
December 12, 2016.......................................... 83
Declaration of Howard E. Slater in Support
of Ford Motor Company’s Motion to
Dismiss, filed January 5, 2017 ....................... 91
Declaration of Michael DeYoung in Support
of Ford Motor Company’s Motion to
Dismiss, filed January 5, 2017 ....................... 93
Declaration of Michael R. Carey in Support
of Ford Motor Company’s Motion to
Dismiss, filed January 5, 2017 ....................... 96
Exhibit A – Ford Motor Company’s Answers and Objections to Plaintiff’s
First Set of Jurisdictional Interrogatories, dated December 12, 2016............... 98
Exhibit B – CARFAX Vehicle History
Report ...................................................... 128

SUPREME COURT OF MONTANA
_______________
Case No. OP 19-0099
FORD MOTOR COMPANY,
Petitioner,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT,
ELIZABETH BEST,
Respondent.
_______________
DOCKET ENTRIES
DATE

PROCEEDINGS

02/08/2019

Petition – Writ – Supervisory Control
* * *

03/13/2019

Response/Objection – Petition for Writ
(Lucero)
* * *

05/21/2019

Opinion – Opinion and Order – Justice
McKinnon; Ford’s Petition for Writ of
Supervisory Control is GRANTED and
the District Court’s order denying
Ford’s motion to dismiss is AFFIRMED.
* * *

06/07/2019

Event – Case Closed
* * *

(1)

2
MONTANA EIGHTH JUDICIAL DISTRICT COURT
CASCADE COUNTY
_______________
Case No. ADV-18-0247(b)
CHARLES S. LUCERO,
Plaintiff,
v.
FORD MOTOR COMPANY; THE GOODYEAR TIRE &
RUBBER COMPANY; THE KELLY-SPRINGFIELD TIRE
CORPORATION; LLOYD’S TIRE SERVICE; TIRES PLUS,
INC.; AND DOES 1 THROUGH 10;
Defendants.
_______________
DOCKET ENTRIES
DATE
05/02/2018

DOCKET
NUMBER PROCEEDINGS
1

Plaintiff’s Complaint and
Demand for Jury Trial
* * *

07/06/2018

3

Motion to Dismiss for Lack
of Personal Jurisdiction or,
in the Alternative to
Change Venue
* * *

10/10/2018

30

Order Denying Defendant
Ford Motor Company’s
Motion to Dismiss and
Defendants Ford Motor

3
DATE

DOCKET
NUMBER PROCEEDINGS
Company and Tires Plus’s
Motion for Change of
Venue
* * *

10/24/2018

34

Ford Motor Company’s
Answer,
Affirmative
Defenses, And Jury Demand

11/05/2018

35

Notice of Appeal
* * *

4
SUPREME COURT OF MINNESOTA
___________
Case No. A17-1182
ADAM BANDEMER
Respondent,
v.
FORD MOTOR COMPANY,
Appellant,
ERIC HANSON, ET AL.,
Defendants.
_______________
DOCKET ENTRIES
DOCUMENT
DESCRIPTION
Notice – Appeal –
Case Filed; Order
5/25/17

JURISDICFILING DATE
TION
Court of
Appeals

07/31/2017

* * *
Notice of Constitutional Challenge

Court of
Appeals

08/01/2017
* * *

Brief – Appellant
E-Filed

Court of
Appeals

08/21/2017
* * *

Brief – Respondent
E-Filed

Court of
Appeals

10/18/2017
* * *

5
DOCUMENT
DESCRIPTION
Brief – Reply EFiled

JURISDICFILING DATE
TION
Court of
Appeals

11/06/2017
* * *

Event – Oral –
Panel

Court of
Appeals

01/24/2018
* * *

Opinion – Published

Court of
Appeals

04/23/2018

Petition – Further
Review

Supreme
Court

05/23/2018
* * *

Order – PFR –
Grant

Supreme
Court

07/17/2018
* * *

Brief – Appellant
E-Filed

Supreme
Court

08/23/2018
* * *

Brief – Amicus EFiled ( The Chamber of Commerce of
the United States of
America)

Supreme
Court

08/30/2018

* * *
Brief – Respondent
E-Filed

Supreme
Court

09/25/2018

6
DOCUMENT
DESCRIPTION
Brief – Reply EFiled

JURISDICFILING DATE
TION
Supreme
Court

10/05/2018
* * *

Event – Oral – En
Banc

Supreme
Court

12/11/2018
* * *

Opinion – Published

Supreme
Court

07/31/2019
* * *

7
MINNESOTA SEVENTH JUDICIAL DISTRICT
COURT
TODD COUNTY
___________
Case No. 77-CV-16-1025
ADAM BANDEMER
Plaintiff,
v.
FORD MOTOR COMPANY, ERIC HANSON & GREG
HANSON,
Defendants.
_______________
DOCKET ENTRIES
DATE
09/02/2016

INDEX
NUMBER PROCEEDINGS
2

Summons and Complaint
* * *

09/28/2016

4

Answer
* * *

01/05/2017

35

Notice of
Motion

Motion

01/05/2017

36

Motion to Dismiss

and

* * *
02/03/2017

Motion Hearing (1:30 PM)
(Judicial Officer Anderson,
Douglas P.)
* * *

8
DATE
05/25/2017

INDEX
NUMBER PROCEEDINGS
81

Order Denying Motion
(Judicial Officer: Anderson, Douglas P.)
* * *

9
PETITION FOR WRIT OF SUPERVISORY
CONTROL – EXHIBIT A
___________
MONTANA EIGHTH JUDICIAL DISTRICT
COURT, CASCADE COUNTY
___________
CHARLES S. LUCERO, as Personal Representative of
the Estate of Markkaya Jean Gullet, on Behalf of the
Heirs and Estate of Markkaya Jean Gullet,
Plaintiff,
v.
FORD MOTOR COMPANY, a Delaware Corporation; THE
GOODYEAR TIRE & RUBBER COMPANY, an Ohio Corporation; THE KELLY-SPRINGFIELD TIRE COMPANY, a
Maryland Corporation; LLOYD’S TIRE SERVICE, a
Washington Corporation; TIRES PLUS, INC., a Montana Corporation; AND DOES 1 THROUGH 10;
Defendants.
___________
Cause No. ADV-18-0247
___________
Hon. Gregory G. Pinski
___________
PLAINTIFF’S COMPLAINT AND DEMAND
FOR JURY TRIAL
___________
COMES NOW Plaintiff Charles S. Lucero, as Personal Representative of the Estate of Markkaya Jean
Gullett, on behalf of the Heirs and Estate of Markkaya Jean Gullett, and alleges:

10
GENERAL ALLEGATIONS
1. On May 22, 2015, Markkaya Jean Gullett
(“Decedent”) suffered fatal injuries in a single vehicle
rollover crash in Mineral County, Montana, following
a sudden and unexpected tread belt separation of her
right rear tire. The Decedent was operating a 1996
Ford Explorer at the time of the incident. The failed
tire was a LT235/75R15 Trailfinder Radial AP, Load
Range C tire manufactured during the 18th week of
1995 Kelly-Springfield.
2. Charles S. Lucero, as Personal Representative
of the Estate of Markkaya Jean Gullett, files the
subject litigation on behalf of the Heirs and Estate of
Markkaya Jean Gullett, seeking damages under
Montana law against a variety of defendants for
negligence, products or strict liability, and failure to
warn.
3. This is another in a long-line of Ford Explorer
rollover crashes associated with tire failures. The
Explorer design was the subject of a massive series of
recalls, investigations, Congressional hearings, and
internal root cause evaluations beginning in 2000,
many of which involved tire failures.
PARTIES
4. Plaintiff Charles S. Lucero is a citizen and
resident of Cascade County, Montana. He is the duly
appointed, qualified and acting Personal Representative of the Estate of Markkaya Jean Gullett (“Mrs.
Gullett”), who at the time of her death was a citizen
and resident of Superior, Montana.
5. Upon her death on May 22, 2015, Mrs. Gullet
left surviving her husband, Ross Gullett, their minor
children, Kiona Gullett, born July 25, 2012, and

11
Kayah Gullett, born February 17, 2015, and her
parents Kevin and Tracy McGann. All are citizens
and residents of Montana.
6. Defendant Ford Motor Company (“Ford”) is a
corporation organized under Delaware law, with its
principal place of business in Dearborn, Michigan. At
all times relevant to the Complaint, Ford was in the
business of designing, manufacturing, assembling,
marketing, selling, and distributing automobiles,
including the subject Explorer, and placing vehicles
into the stream of commerce. The subject vehicle was
a 1996 Ford Explorer, VIN# 1FMDU34XXTUB0926
(“Subject Vehicle”).
7. Defendant The Goodyear Tire & Rubber Company (“Goodyear”) is a corporation organized and
existing under the laws of the State of Ohio.
8. Defendant The Kelly-Springfield Tire Corporation (“Kelly-Springfield”) is a corporation organized
and existing under the laws of the State of Maryland.
In 1935, Goodyear bought Kelly-Springfield and
thereafter, as the parent company, fully absorbed
Kelly-Springfield within Goodyear. Goodyear and
Kelly-Springfield were collectively engaged together
in the designing, manufacturing, assembling, selling,
marketing, distributing, and placing tires into the
stream of commerce, including the LT235/75R15
Trailfinder Radial AP Load Range C tire manufactured during the 18th week of 1995 at the KellySpringfield tire factory in Valleyfield, Quebec, Canada, under DOT code ULHKA7LV185 (“Subject Tire”)
involved in the accident which killed Mrs. Gullett.
9. Defendant Lloyd’s Tire Service, Inc. (“Lloyd’s”)
was a Washington corporation organized under
Washington law, with its principal place of business

12
in Spokane, Washington. Lloyd’s designed, manufactured, assembled, sold, marketed, distributed, and
placed retread tires into the stream of commerce,
including the Subject Tire retread in 1998 at Lloyd’s
in Spokane, Washington, under retread DOT code R
MHF R1 238.
10. Defendant Tires Plus, Inc. (“Tires Plus”) is a
Montana corporation organized under Montana law,
with its principal place of business in Thompson
Falls, Montana. Tires Plus provides its customers a
wide range of tire and automotive services including
tire sales and service.
11. The true names or capacities, whether individual, corporate, associated, affiliated, or otherwise
of Defendants DOES 1 through 10, inclusive, are
unknown to Plaintiff, who therefore sues said Defendants by such fictitious names. Upon information
and belief, each of the Defendants sued herein as a
fictitious name is legally responsible in some manner
for the events and happenings referred to herein, and
Plaintiff will seek leave of Court to amend this
Complaint to insert their true names and capacities
in place and instead of the fictitious names when the
same become known to them.
JURISDICTION
12. This Court has subject matter jurisdiction over
this action and personal jurisdiction over each of the
parties.
13. Ford designed, manufactured, assembled,
marketed, and distributed the 1996 Explorer. The
subject Explorer was a four-door wagon with a 4.0L
V6 engine, and a four-wheel-drive transmission. Ford
first distributed the subject vehicle into the stream of
commerce in Oregon in 1995. The vehicle moved in

13
the stream of commerce to the state of Washington
where it was serviced at Gus Johnson Ford in Spokane Valley, Washington in 2001. In approximately
2006, the vehicle was transferred in the stream of
commerce to the state of Montana where it was
licensed and registered. While the vehicle was in
Montana, Ford issued a “Safety Recall” (Recall
09V399000). The Safety Recall was provided to all
licensed dealers in Montana, as well as all other
states, and to owners across the country. Ford provided recall services in Montana for the vehicle,
including certified repair and replace services.
14. The Court has specific jurisdiction over Ford
for purposes of this litigation based on the facts. The
Decedent and survivors reside in Montana. The
decedent was a Montana resident prior to her death.
The wreck at issue occurred in Montana. The event
that initiated the loss of control — the tire failure —
occurred in Montana. The subject Explorer had a
Montana owner and was transported in the stream of
commerce to Montana as Ford fully expected it, and
other vehicles, would be. All fact witnesses are in
Montana, and at all times relevant to the subject
Complaint, Ford was a foreign corporation registered
to do business in Montana under business identifier
F006241, since 1964, with its registered agent being
the CT Corporation System, 3011 American Way,
Missoula, Montana, 59808; Ford owned or authorized
operation of 36 Ford dealerships throughout Montana; Ford operated subsidiary companies in Montana, including Ford Motor Credit, all of whom
employed residents of Montana; and Ford marketed
and advertised the Ford Explorer in Montana as a
safe and stable passenger-carrying vehicle. The
Court does not exceed its powers under the Due

14
Process Clause if it asserts personal jurisdiction over
a corporation that delivers its products into the
stream of commerce with the expectation that the
products will be purchased by consumers in the
forum State. Nor does the court exceed its powers
under the Due Process Clause if it asserts personal
jurisdiction over a corporation that delivers its
products into the stream of commerce with the
expectation that they will be purchased by consumers in the forum, primarily because a State has a
“manifest interest” in providing its residents with a
convenient forum for redressing injuries inflicted by
out-of-state actors and, where individuals “purposefully derive benefit” from their interstate activities, it
is unfair to allow them to escape having to account in
other States for consequences that arise proximately
from such activities because the Due Process Clause
may not be wielded as a territorial shield to avoid
interstate obligations that have been voluntarily
assumed. This is particularly true in product liability
actions and this case where Plaintiff, Plaintiff’s
decedent, and the heirs were all Montana residents
at the time of Markkaya’ s death. The purposes
sought to be achieved by Montana’s product liability
laws would be furthered by their application to this
set of facts. One of the central purposes of Montana’s
product liability scheme is to prevent injuries to
Montana residents caused by defectively designed
products. Montana has a direct interest in the application of its product liability laws because its resident was killed in this Montana accident. Montana
adopted a strict liability standard in order to afford
maximum protection for consumers against dangerous defects in manufactured products with the focus
on the condition of the product, and not on the manu-

15
facturer’s conduct or knowledge. Montana law provides maximum protection and compensation to
Montana residents with the focus on the condition of
the product and not on the conduct of the manufacturer. Applying Montana’s provisions guaranteeing
strict liability and full compensation to a cause of
action involving a Montana domiciliary injured by a
defective product furthers the purposes of Montana
law by insuring that the costs to Montana residents
due to injuries from defective products are fully
borne by the responsible parties. It will also have the
salutary effect of deterring future sales of defective
products in Montana and encouraging manufacturers
to warn Montana residents about defects in their
products as quickly and as thoroughly as possible.
The guarantee of full compensation for Montana
residents who suffer injuries due to defective products certainly does not turn on such fortuitous circumstances as where the product was initially sold.
Ford’s willingness to serve and sell to Montana
consumers, its pervasive marketing on multiple
platforms to Montana residents, and its accrual of
benefits from Montana consumers buying its products make it reasonable for Ford to anticipate being
haled into a Montana court. Ford’s actions show its
willingness to serve the Montana market and that
Defendant derived benefits from Montanans owning
Ford brand vehicles. Ford has the required minimum
contacts with Montana in this case under a stream of
commerce theory.
15. The Court has specific jurisdiction over Goodyear and Kelly-Springfield for purposes of this litigation based on the facts. The Decedent and survivors
reside in Montana. The decedent was a Montana
resident prior to her death. The wreck at issue in this

16
case occurred in Montana. The event that initiated
the loss of control — the Goodyear and KellySpringfield tire failure — occurred in Montana. The
subject tire had a Montana owner and was transported in the stream of commerce to Montana as
Goodyear and Kelly-Springfield fully expected it, and
other tires, would be. All fact witnesses are in Montana, and at all times relevant to the subject Complaint, Goodyear was a foreign corporation registered
to do business in Montana under business identifier
F004802 since 1956, with its registered agent being
the CT Corporation System, 3011 American Way,
Missoula, Montana, 59808. Kelly-Springfield was a
foreign corporation registered to do business in
Montana under business identifier F001548 beginning in 1919 until it was absorbed by Goodyear.
Goodyear and Kelly-Springfield own, authorize or
sell their tires in 80 tire stores throughout Montana;
Goodyear and Kelly-Springfield marketed and advertised their tires in Montana as safe passengercarrying tires. The Court does not exceed its powers
under the Due Process Clause if it asserts personal
jurisdiction over a corporation that delivers its
products into the stream of commerce with the
expectation that the products will be purchased by
consumers in the forum State. Nor does the court
exceed its powers under the Due Process Clause if it
asserts personal jurisdiction over a corporation that
delivers its products into the stream of commerce
with the expectation that they will be purchased by
consumers in the forum, primarily because a State
has a “manifest interest” in providing its residents
with a convenient forum for redressing injuries
inflicted by out-of-state actors and, where individuals
“purposefully derive benefit” from their interstate

17
activities, it is unfair to allow them to escape having
to account in other States for consequences that arise
proximately from such activities because the Due
Process Clause may not be wielded as a territorial
shield to avoid interstate obligations that have been
voluntarily assumed. This is particularly true in
product liability actions and this case where Plaintiff, Plaintiff’s decedent, and the heirs were all Montana residents at the time of Markkaya’s death. The
purposes sought to be achieved by Montana’s product
liability laws would be furthered by their application
to this set of facts. One of the central purposes of
Montana’s product liability scheme is to prevent
injuries to Montana residents caused by defectively
designed products. Montana has a direct interest in
the application of its product liability laws because
its resident was killed in this accident. Montana
adopted a strict liability standard in order to afford
maximum protection for consumers against dangerous defects in manufactured products with the focus
on the condition of the product, and not on the manufacturer’s conduct or knowledge. Montana law provides maximum protection and compensation to
Montana residents with the focus on the condition of
the product and not on the conduct of the manufacturer. Applying Montana’s provisions guaranteeing
strict liability and full compensation to a cause of
action involving a Montana domiciliary injured by a
defective product furthers the purposes of Montana
law by insuring that the costs to Montana residents
due to injuries from defective products are fully
borne by the responsible parties. It will also have the
salutary effect of deterring future sales of defective
products in Montana and encouraging manufacturers
to warn Montana residents about defects in their

18
products as quickly and as thoroughly as possible.
The guarantee of full compensation for Montana
residents who suffer injuries due to defective products certainly does not turn on such fortuitous circumstances as where the product was initially sold.
Goodyear’s and Kelly-Springfield’s willingness to
serve and sell to Montana consumers, its pervasive
marketing on multiple platforms to Montana residents, and its accrual of benefits from Montana
consumers buying its products make it reasonable for
Goodyear and Kelly-Springfield to anticipate being
haled into a Montana court. Goodyear’s and KellySpringfield’s actions show their willingness to serve
the Montana market and that they derived benefits
from Montanans owning Goodyear and KellySpringfield brand tires. Goodyear and KellySpringfield have the required minimum contacts
with Montana in this case under a stream of commerce theory.
16. The Court has specific jurisdiction over Lloyd’s
for purposes of this litigation based on the facts. The
Decedent and survivors reside in Montana. The
decedent was a Montana resident prior to her death.
The wreck at issue in this case occurred in Montana.
The event that initiated the loss of control — the
Lloyd’s recapped tire failure — occurred in Montana.
The subject tire had a Montana owner and was
transported in the stream of commerce to Montana
as upon information and belief Lloyd’s fully expected
it, and other tires, would be. All fact witnesses are in
Montana, and at all times relevant to the subject
Complaint, Lloyd’s was doing business in Spokane,
Washington, which is approximately 20 miles from
the Idaho border. Upon information and belief,
although the recapped tire was initially sold in

19
Washington, Lloyd’s purposely availed itself of the
privilege of doing business in Montana in that it
designed, manufactured, marketed, and sold retread
tires specifically built for interstate travel over road
and highways which included Idaho and Montana.
Lloyd’s marketed and advertised its tires as safe
passenger-carrying tires. The Court “does not exceed
its powers under the Due Process Clause if it asserts
personal jurisdiction over a corporation that delivers
its products into the stream of commerce with the
expectation that the products will be purchased by
consumers in the forum State. Nor does the court
exceed its powers under the Due Process Clause if it
asserts personal jurisdiction over a corporation that
delivers its products into the stream of commerce
with the expectation that they will be purchased by
consumers in the forum, primarily because a State
has a “manifest interest” in providing its residents
with a convenient forum for redressing injuries
inflicted by out-of-state actors and, where individuals
“purposefully derive benefit” from their interstate
activities, it is unfair to allow them to escape having
to account in other States for consequences that arise
proximately from such activities because the Due
Process Clause may not be wielded as a territorial
shield to avoid interstate obligations that have been
voluntarily assumed. This is particularly true in
product liability actions and this case were Plaintiff,
Plaintiff’s decedent, and the heirs were all Montana
residents at the time of Markkaya’s death. The
purposes sought to be achieved by Montana’s product
liability laws would be furthered by their application
to this set of facts. One of the central purposes of
Montana’s product liability scheme is to prevent
injuries to Montana residents caused by defectively

20
designed products. Montana has a direct interest in
the application of its product liability laws because
its resident was killed in this accident. Montana
adopted a strict liability standard in order to afford
maximum protection for consumers against dangerous defects in manufactured products with the focus
on the condition of the product, and not on the manufacturer’s conduct or knowledge. Montana law provides maximum protection and compensation to
Montana residents with the focus on the condition of
the product and not on the conduct of the manufacturer. Applying Montana’s provisions guaranteeing
strict liability and full compensation to a cause of
action involving a Montana domiciliary injured by a
defective product furthers the purposes of Montana
law by insuring that the costs to Montana residents
due to injuries from defective products are fully
borne by the responsible parties. It will also have the
salutary effect of deterring future sales of defective
products in Montana and encouraging manufacturers
to warn Montana residents about defects in their
products as quickly and as thoroughly as possible.
The guarantee of full compensation for Montana
residents who suffer injuries due to defective products certainly does not turn on such fortuitous circumstances as where the product was initially sold.
Lloyd’s willingness to serve and sell to Montana
consumers, its pervasive marketing on multiple
platforms to Montana residents, and its accrual of
benefits from Montana consumers buying its products make it reasonable for Lloyd’s to anticipate
being haled into a Montana court. Lloyd’s actions
show its willingness to serve the Montana market
and that Lloyd’s derived benefits from Montanans
owning Lloyd’s recapped tires. Lloyd’s has the re-

21
quired minimum contacts with Montana in this case
under a stream of commerce theory.
17. The Court has specific jurisdiction over Tires
Plus based on the facts and its incorporation under
the laws of the State of Montana. At all times relevant to the subject Complaint, Tires Plus was a
Montana corporation registered to do business in
Montana under business identifier A252558 since
2014, with its registered agent being Carol Fisher,
4879 Highway 200/59873, Trout Creek, Montana,
59874.
VENUE
18. Venue is proper in Cascade County, Montana,
under § 25-2-122(2)(b), MCA, because of Ford’s,
Goodyear’s, Kelly-Springfield’s, and Lloyd’s incorporation in states other than Montana, and the Plaintiff is a resident of Cascade County, Montana.
BACKGROUND FACTS
19. In the late winter or early spring of 2015, the
Subject Tire was received as a gift from a family
friend of the Gulletts and mounted on the rear passenger side of the Subject Vehicle where it remained
until the accident occurred on May 22, 2015.
20. On May 15, 2015, the original tire carcass of
the Subject Tire mounted on the rear passenger side
of the Subject Vehicle was over 20 years old, and the
tire had been retreaded by Lloyd’s over 16 years
earlier.
21. On or about April 29, 2015, the Subject Vehicle
was taken to Tires Plus in Thompson Falls, Montana,
for tire service and the replacement of the vehicle’s
two front tires. Tires Plus dismounted the two front

22
tires and balanced and mounted two used replacement tires on the front of the Subject Vehicle.
22. On May 22, 2015, Mrs. Gullett was driving the
Subject Vehicle eastbound on Interstate 90 in Mineral County, Montana, at approximately Mile Post
65.7, when the Subject Tire mounted on the rear
passenger side of the Ford Explorer suffered a catastrophic tread/belt separation.
23. The Subject Tire malfunctioned absent any
adverse weather conditions, road hazards, unforeseeable misuse or interference from any other vehicles or obstructions.
24. Only a few miles were put on the Subject Vehicle from when Tires Plus performed tire service on
the Subject Vehicle until the May 22, 2015, accident.
25. Immediately following the failure of the Subject Tire, the Ford Explorer lost stability and was
rendered unstable and uncontrollable.
26. Mrs. Gullett took foreseeable corrective action
and the Explorer responded by leaving the roadway,
rolling into a ditch, and coming to rest upside down.
27. Mrs. Gullett was injured and died at the scene
because of the injuries she sustained during the
accident.
28. Mrs. Gullett’s death was not instantaneous.
29. At all times relevant to this complaint, nothing
had been done to change or alter the design of the
Subject Tire, including its carcass and internal
components, and all changes in its condition were
foreseeable when sold and distributed by Goodyear
and Kelly-Springfield and Lloyd’s.

23
30. On May 22, 2015, the Subject Vehicle was in
substantially the same condition as when it was
originally sold and placed into the stream of commerce by Ford, and nothing had been done to change
or alter the design of the Subject Vehicle
COUNT I
STRICT LIABILITY — DESIGN DEFECTS
AGAINST FORD¶
31. Plaintiff incorporates all previous paragraphs
as if fully reproduced.
32. The Subject Vehicle Explorer was in a defective condition because of defective design when used
as designed, developed, tested, assembled, manufactured, marketed, distributed, and sold by Ford.
33. Due to defects in Ford’s design of the Subject
Vehicle, the Ford Explorer lost stability and was
rendered unstable and uncontrollable, resulting in
the accident.
34. The defective nature of the design of the Subject Vehicle includes:
(a) The Explorer is defective in design from a
handling standpoint because it has an tendency to get sideways in emergency situations and does not remain controllable under all operating conditions as required by
Ford guidelines, including the tendency to
oversteer and skate when a tread/belt separation occurs on one of its tires;
(b) The Explorer is defective in design from a
stability standpoint because it rolls over instead of sliding when loss of directional
control occurs on relatively flat level sur-

24
faces during foreseeable steering maneuvers;
(c) The Explorer is defective in design because
it performs in an unsafe manner when operated in foreseeable emergency situations
and corrective maneuvers;
(d) The Explorer is defective in that the design
of the “package”, which includes the combination of track width and vertical center of
gravity height, creates an unreasonable
risk of rollover given the uses for which the
vehicle was marketed;
(e) The Explorer is defective in design because
a combination of the foregoing creates an
extreme risk of accident and injuries both
beyond the reasonable expectations of consumers and creates a risk that far outweighs any benefit associated with the design given the uses for which the vehicle
was marketed; and/or
(f) The Explorer is defective in design because
safer alternative designs regarding stability and control were economically and
technologically feasible when the Explorer
left the control of Ford.
35. As a direct and proximate result of the defective condition of the Subject Vehicle because of its
defective design, the accident occurred and Mrs.
Gullett was injured and killed, resulting in damages,
harms, and losses to her heirs and estate, as detailed
below, for which Plaintiff seeks to recover damages.

25
COUNT II
STRICT LIABILITY — FAILURE TO WARN
AGAINST FORD
36. Plaintiff incorporates all previous paragraphs
as if fully reproduced.
37. The Explorer was in a defective condition because of Ford’s failure to adequately warn consumers
and users about risk of serious injury and death
associated with the Explorer, including:
(a) Its tendency to get sideways in emergency
situations and to not remain controllable
under all operating conditions as required
by Ford guidelines, including the tendency
to oversteer and skate when a tread/belt
separation occurs on one of its tires;
(b) Its tendency to roll to over instead of sliding when loss of directional control occurs
on relatively flat level surfaces during foreseeable steering maneuvers; and/or
(c) Its tendency to perform in an unsafe manner when operated in foreseeable emergency situations and corrective maneuvers.
38. As a direct and proximate result of the defective condition of the Subject Vehicle because of Ford’s
failure to warn, the accident occurred and Mrs.
Gullett was injured and killed, resulting in damages,
harms, and losses to her heirs and estate, as detailed
below, for which Plaintiff seeks to recover damages.
COUNT III
NEGLIGENCE AGAINST FORD
39. Plaintiff incorporates all previous paragraphs
as if fully reproduced.

26
40. At all times relevant this Complaint, Ford held
itself out to the public as having specialized
knowledge in designing and manufacturing SUVs
like the Subject Vehicle. Ford owed consumers,
including Mrs. Gullett, a duty to use reasonable care
in the testing, design, manufacture, assembling,
preparation, instructing, and warnings concerning
the Subject Vehicle.
41. Because of the knowledge Ford had or should
have had related to SUVs and injuries and fatalities
being sustained by occupants in SUV accidents, like
its Bronco and Explorer model lines, the negligence
of Ford includes:
(a) Ford’s failure to use the care in testing, designing, manufacturing, and assembling
the Subject Vehicle that a reasonably careful designer, manufacturer or seller would
use in similar circumstances to avoid exposing others to a foreseeable risk of harm;
(b) Ford’s failure to design the vehicle from a
handling and stability standpoint given
how it was marketed;
(c) Ford’s failure to design the vehicle without
good rollover resistance given how it was
marketed;
(d) Ford’s failure to reasonably test the vehicle
from a handling and stability standpoint;
(e) Ford’s failure to meet or exceed internal
corporate guidelines in the design and production of the Subject Vehicle;
(f) Ford’s marketing of the vehicle as a safe
and stable passenger vehicle given the uses
for which it was marketed;

27
(g) Ford’s advertising of the vehicle as safe and
stable family vehicle;
(h) Ford’s failure to warn about the dangerous
propensities of the Explorer which Ford
knew or had reason to know would expose
others to a foreseeable risk of harm;
(i) Ford’s failure to disclose known defects,
dangers, and problems to both dealers and
the public regarding the Subject Vehicle including: its tendency to get sideways in
emergency situations and to not remain
controllable under all operating conditions
as required by Ford guidelines, including
the tendency to oversteer and skate when a
tread/belt separation occurs on one of its
tires; its tendency to roll to over instead of
sliding when loss of directional control occurs on relatively flat level surfaces during
foreseeable steering maneuvers; its tendency to perform in an unsafe manner when
operated in foreseeable emergency situations and corrective maneuvers; and/or
(j) Ford’s failure to inform consumers, including Mrs. Gullett, of the information Ford
knew about rollover risks in Explorers like
the Subject Vehicle Explorer, and its failure to disclose known problems with Explorers in foreign countries to conceal problems that Ford knew about from U.S. consumers, including Mrs. Gullett.
42. As a direct and proximate result of Ford’s negligence, the accident occurred and Mrs. Gullett was
injured and killed, resulting in damages, harms, and

28
losses to her heirs and estate, as detailed below, for
which Plaintiff seeks to recover damages.
COUNT IV
CLAIM FOR PUNITIVE DAMAGES AGAINST
FORD
43. Plaintiff incorporates all previous paragraphs
as if fully reproduced.
44. Ford had actual knowledge of facts and/or
intentionally disregarded facts that created a high
probability of injury to Mrs. Gullet and users of
Explorers and the Subject Vehicle.
45. Ford deliberately proceeded to act in conscious
or intentional disregard of the high probability of
injury to Mrs. Gullett and other such users and/or
deliberately proceeded to act with indifference to the
high probability of injury to Mrs. Gullett and other
such users. Ford is guilty of malice as defined by
Montana law, under § 27-1-221, MCA, and should be
punished and made an example of to discourage Ford
others from engaging in like conduct in the future,
through an assessment of punitive damages.
COUNT V
STRICT LIABILITY — DESIGN DEFECTS
AGAINST GOODYEAR AND KELLYSPRINGFIELD
46. Plaintiff incorporates all previous paragraphs
as if fully reproduced.
47. The Subject Tire was in a defective condition
because of defective design when used as designed,
developed, tested, assembled, manufactured, marketed, distributed, and sold by Goodyear and Kelly
Springfield.

29
48. Due to defects in Goodyear’s and KellySpringfield’s design of the Subject Tire, its carcass
and internal components, said tire catastrophically
failed, resulting in the subject accident.
49. The defective nature of the design of the Subject Tire includes:
(a) The Subject Tire is defective because its
design fails to incorporate nylon overlays,
nylon belt edge layers, or nylon safety belts
to reduce the hazard of tread/belt separation;
(b) The Subject Tire is defective in design because its design does not include robust
construction elements such as a nylon cap
ply, Kevlar or other known means to resist
tread/belt separation;
(c) The Subject Tire is defective in design because it creates an extreme risk of accident
and injuries both beyond the reasonable
expectations of consumers and creates a
risk that far outweighs any benefit associated with the design given the uses for
which the vehicle was marketed; and/or
(d) The Subject tire is defective in design because safer alternative designs were economically and technologically feasible
when the Subject Tire left the control of
Goodyear and Kelly-Springfield that would
have reduced and/or eliminated tread/belt
separations.
50. As a direct and proximate result of the defective condition of the Subject Tire because of its
defective design, the accident occurred and Mrs.

30
Gullett was injured and killed, resulting in damages,
harms, and losses to her heirs and estate, as detailed
below, for which Plaintiff seeks to recover damages.
COUNT VI
STRICT LIABILITY — FAILURE TO WARN
AGAINST GOODYEAR AND KELLYSPRINGFIELD
51. Plaintiff incorporates all previous paragraphs
as if fully reproduced.
52. The Subject Tire was in a defective condition
because of Goodyear’s and Kelly-Springfield’s failure
to adequately warn consumers and users about risk
of tread/belt separation associated with tire aging;
and that for consumer safety, the Subject Tire should
have been removed from service by a date certain
many years before the accident.
53. As a direct and proximate result of the defective condition of the Subject Vehicle because of
Goodyear’s and Kelly-Springfield’s failure to warn,
the accident occurred and Mrs. Gullett was injured
and killed, resulting in damages, harms, and losses
to her heirs and estate, as detailed below, for which
Plaintiff seeks to recover damages.
COUNT VII
NEGLIGENCE AGAINST GOODYEAR AND
KELLY-SPRINGFIELD
54. Plaintiff incorporates all previous paragraphs
as if fully reproduced.
55. At all times relevant this Complaint, Goodyear
and Kelly-Springfield held themselves out to the
public as having specialized knowledge in designing
and manufacturing car and truck tires like the
Subject Tire. Goodyear and Kelly-Springfield owed

31
consumers, including Mrs. Gullett, a duty to use
reasonable care in the testing, design, manufacture,
assembling, preparation, instructing, and warnings
concerning the Subject Tire.
56. Because of the knowledge Goodyear and KellySpringfield had or should have had related to car and
truck tires and injuries and fatalities suffered by
motor vehicle occupants when catastrophic tread/belt
separation occurs, the negligence of Goodyear and
Kelly-Springfield includes:
(a) Failing to use the care in testing, designing, manufacturing, and assembling the
Subject Tire that a reasonably careful designer, manufacturer or seller would use in
similar circumstances to avoid exposing
others to a foreseeable risk of harm from
catastrophic tire failure and tread/belt separation; and/or
(b) Failing to adequately warn consumers and
users about risk of tire aging, and that for
consumer safety and to guard against catastrophic tire failure and tread-belt separation that the Subject Tire should have been
removed from service by a date certain
many years before the accident.
57. As a direct and proximate result of Goodyear’s
and Kelly-Springfield’s negligence, the accident
occurred and Mrs. Gullett was injured and killed,
resulting in damages, harms, and losses to her heirs
and estate, as detailed below, for which Plaintiff
seeks to recover damages.

32
COUNT VIII
STRICT LIABILITY AGAINST LLOYD’S
DESIGN
58. Plaintiff incorporates all previous paragraphs
as if fully reproduced.
59. The Subject Tire was in a defective condition
because of defective design when used as designed,
developed, tested, assembled, manufactured, marketed, distributed, and sold by Lloyd’s.
60. Due to defects in Lloyd’s design of the retreaded Subject Tire, it catastrophically failed, resulting in
the accident.
61. The defective nature of the design of the retreaded Subject Tire includes:
(a) The Subject Tire is defective because its
design fails to incorporate nylon overlays,
nylon belt edge layers, or nylon safety belts
to reduce the hazard of tread belt separation;
(b) The Subject Tire is defective in design because its design does not include robust
construction elements such as a nylon cap
ply, Kevlar or other known means to resist
tread-belt separation;
(c) The Subject Tire is defective in design because it creates an extreme risk of accident
and injuries both beyond the reasonable
expectations of consumers and creates a
risk that far outweighs any benefit associated with the design given the uses for
which the vehicle was marketed; and/or
(d) The Subject Tire is defective in design because safer alternative designs were eco-

33
nomically and technologically feasible
when the Subject Tire left the control of
Lloyd’s that would have reduced and/or
eliminate tread/belt separations;
62. As a direct and proximate result of the defective condition of the Subject Tire because of Lloyd’s
design, the accident occurred and Mrs. Gullett was
injured and killed, resulting in damages, harms, and
losses to her heirs and estate, as detailed below, for
which Plaintiff seeks to recover damages.
COUNT IX
STRICT LIABILITY — FAILURE TO WARN
AGAINST LLOYD’S
63. Plaintiff incorporates all previous paragraphs
as if fully reproduced.
64. The Subject Tire was in a defective condition
because of Lloyd’s failure to adequately warn consumers and users about risk of tread/belt separation
associated with tire aging, and that for consumer
safety the Subject Tire should have been removed
from service by a date certain many years before the
accident.
65. As a direct and proximate result of the defective condition of the Subject Tire because of Lloyd’s
failure to warn, the accident occurred and Mrs.
Gullett was injured and killed, resulting in damages,
harms, and losses to her heirs and estate, as detailed
below, for which Plaintiff seeks to recover damages.
COUNT X
NEGLIGENCE AGAINST LLOYD’S
66. Plaintiff incorporates all previous paragraphs
as if fully reproduced.

34
67. At all times relevant this Complaint, Lloyd’s
held itself out to the public as having specialized
knowledge in designing and manufacturing retread
car and truck tires like the Subject Tire. Lloyd’s owed
consumers, including Mrs. Gullett, a duty to use
reasonable care in the testing, design, manufacture,
assembling, preparation, instructing and warnings
concerning the Subject Tire.
68. The negligence of Lloyd’s includes:
(a) Failing to use the care in testing, designing, manufacturing, and assembling the
Subject Tire that a reasonably careful designer, manufacturer or seller would use in
similar circumstances to avoid exposing
others to a foreseeable risk of harm from
catastrophic tire failure and tread/belt separation; and/or
(b) Failing to adequately warn consumers and
users about risk of tire aging, and that for
consumer safety and to guard against catastrophic tire failure and tread-belt separation that the Subject Tire should have been
removed from service by a date certain
many years before the accident.
69. As a direct and proximate result of Lloyd’s
negligence, the accident occurred and Mrs. Gullett
was injured and killed, resulting in damages, harms,
and losses to her heirs and estate, as detailed below,
for which Plaintiff seeks to recover damages.
COUNT XI
NEGLIGENCE CLAIM AGAINST TIRES PLUS
70. Plaintiff incorporates all previous paragraphs
as if fully reproduced.

35
71. At all times relevant this Complaint, Tires
Plus held itself out to the public as having specialized knowledge in tire and auto repair services
72. Tires Plus in performing tire service on the
Subject Vehicle owed consumers and persons reasonably expected to use the Subject Vehicle, including
Mrs. Gullett, a duty to use the care in inspecting and
servicing the Subject Vehicle and its tires that a
reasonable careful tire and automobile service center
would use in similar circumstances to avoid exposing
others to a foreseeable risk of harm from catastrophic
tire failure and tread/belt separation and to warn the
consumers or intended users of defects which it knew
or should have known in exercising ordinary care,
which defects rendered the Subject Vehicle and
Subject Tire unreasonably dangerous to users.
73. On May 15, 2015, the Subject Tire had an
adequate and safe tread depth, but clearly visible
heavier wear was on the shoulder mounted toward
the inside where the separation started, evidencing
an imminent catastrophic tread/belt separation that
should have been detected by Tires Plus.
74. Part of preserving a viable car requires switching out a faulty tire and when the Subject Vehicle
was brought to it for tire service on May 15, 2015,
Tires Plus had a duty to inspect and evaluate all the
vehicle’s tires for uneven tire wear, fracturing, or
bulging treads or sidewalls that may suggest there is
wear or weakness, tread pulling away from the body
of the tire.
75. Tires Plus knew or should have known:
(a) That tires, like the Subject Tire, ought to
not be utilized for longer than 10 years;

36
(b) That a replacement tire is needed if there
is irregular tread wear or damage to a tire
that cannot be repaired and is subject to a
catastrophic tread/belt separation; and
(c) That failure to take corrective action in
such instances can cause catastrophic tire
failure and loss of vehicle control leading to
injury and death.
76. Tires Plus failed to use the care which a reasonably prudent automotive and tire service Center
would use in the conduct of its business and breached
its duty in various ways, including but not limited to
one or more of the following negligent acts:
(a) By failing to properly train and instruct its
employees on proper tire inspection procedures;
(b) By failing to properly inspect the tire which
failed and failing to use due care in inspecting and/or servicing the Subject Vehicle
and Subject Tire;
(c) By failing to make a reasonable inspection
to discover the defective, dangerous and
hazardous condition relating to the Subject
Tire’s imminent tread/belt separation;
(d) By failing to warn of the impending
tread/belt separation in the Subject Tire
which failed and the need to take it out of
service;
(e) By failing to make a reasonable inspection
to discover the advanced age of the Subject
Tire which should have been taken out of
service;

37
(f) By failing to warn of the advanced age of
the Subject Tire and the need to take it out
of service; and/or
(g) By failing to exercise reasonable care for
the safety of the Mrs. Gullett.
77. As a direct and proximate result of Tires Plus’s
negligence, the accident occurred and Mrs. Gullett
was injured and killed, resulting in damages, harms,
and losses to her heirs and estate, as detailed below,
for which Plaintiff seeks to recover damages.
PLAINTIFF’S DAMAGES
A. Survival Cause of Action.
1. As a direct and proximate legal result of the
foregoing events and the wrongful acts and conduct
of Defendants, Mrs. Gullett suffered serious injuries
and eventually died. Said injuries resulted in damages to her and her estate, both prior to and after her
death, including mental and physical pain and
suffering, lost wages and loss of earning capacity,
loss and destruction of her established course of life,
and funeral and burial expenses, each for which this
survival action is brought on behalf of the Estate of
Markkaya Jean Gullett.
B. Wrongful Death Cause of Action.
2. At the time of her death, Mrs. Gullett left surviving her husband, Ross Gullett, and their minor
children, Kiona Gullett and Kayah Gullett.
3. As a direct and proximate legal result of the
foregoing events and the wrongful acts and conduct
of Defendants, they suffered serious damages resulting from Mrs. Gullett’s death, in both the past and in
the future, including damages for the loss to Ross
Gullett, Kiona Gullett, and Kayah Gullett for his

38
wife’s and their mother’s counsel, protection, aid,
guidance, comfort, society, and support, and mental
anguish, each for which this wrongful death action is
now brought on their behalf.
PRAYER FOR RELIEF
WHEREFORE,
Plaintiff demands judgment
against each of the Defendants for all damages
allowed by law, together with costs of suit and for all
such other and further relief to which Plaintiff may
be justly entitled, including but not limited to:
1. All damages, special and general, recoverable
under Montana law, including but not limited to all
economic and non-economic damages, survival damages and wrongful death damages in a reasonable
sum to be proven at trial;
2.

All recoverable costs as allowed by law;

3. Pre-judgment interest on Plaintiff’s damages
as allowed by law; and
4.

Such other relief as may be just and equitable.

And, WHEREFORE, Plaintiff also demands judgment against Ford for punitive damages in a sufficient amount to discourage it and others from engaging in like conduct in the future.
Dated this 2nd day of May, 2018.
By:_/s/ Dennis Conner___
Dennis P. Conner
CONNER & MARR, PLLP
P.O. Box 3028
Great Falls, MT 59403-3028
Attorneys for Plaintiff

39
DEMAND FOR TRIAL BY JURY
Plaintiff demands a trial by jury on all causes of
action and/or claims for relief alleged in, and on all
issues raised by, this Complaint.
Dated this 2nd day of May, 2018.
By: /s/ Dennis Conner
Dennis P. Conner
CONNER & MARR, PLLP
P.O. Box 3028
Great Falls, MT 59403-3028
Attorneys for Plaintiff

40
PETITION FOR WRIT OF SUPERVISORY
CONTROL – EXHIBIT B
___________
MONTANA EIGHTH JUDICIAL DISTRICT
COURT, CASCADE COUNTY
___________
CHARLES S. LUCERO, as Personal Representative of
the Estate of Markkaya Jean Gullet, on Behalf of the
Heirs and Estate of Markkaya Jean Gullet,
Plaintiff,
v.
FORD MOTOR COMPANY, a Delaware corporation; THE
GOODYEAR TIRE & RUBBER COMPANY, an Ohio Corporation; THE KELLY-SPRINGFIELD TIRE CORPORATION, a
Maryland Corporation; LLOYD’S TIRE SERVICE, a
Washington Corporation; TIRES PLUS, INC., a Montana Corporation; AND DOES 1 THROUGH 10
Defendants.
___________
Cause No. DV-15-245A
___________
Judge: Honorable Gregory G. Pinski
___________
AFFIDAVIT OF ERIC KALIS
___________
STATE OF MICHIGAN )
) SS
County of Wayne

)

41
I, Eric Kalis, being first duly sworn Upon oath,
depose and say as follows:
1. My name is Eric Kalis. I am over the age of 18
and have no legal disability. I have personal
knowledge of the matters set forth in this affidavit,
unless otherwise stated, and if called as a witness, I
would be competent to testify to the matters in this
affidavit. The facts stated in this affidavit are true
and correct.
2. I am employed by Ford Motor Company
(“Ford”) in the Design Analysis Engineering Department as a Design Analysis Engineer. My current job
title is Technical Leader, By virtue of my position, I
am generally familiar with Ford’s design and development of the vehicle at issue in this matter, Ford’s
United States business operations, and the locations
of Ford’s manufacturing facilities. I am also familiar
with certain records that Ford keeps on the vehicles
it builds.
3. Ford is in the business of designing and manufacturing new cars and trucks.
4. Ford was incorporated in the state of Delaware
and its principal place of business is in Dearborn,
Michigan.
5. The vehicle described in Plaintiff’s Complaint
is a 1996 Ford Explorer XL 4x4 with vehicle identification number 1FMDU34XXTUB09265. That particular vehicle was finally assembled by Ford in Louisville, Kentucky, on October 18, 1995. The Explorer
was first sold by Ford to an independently-owned
dealership in Washington.

42
6. Ford’s design and development decisions with
respect to this vehicle would not have been made in
Montana.
7. Ford does not have a manufacturing plant in
Montana.
8. This particular vehicle was not originally sold
by Ford in Montana.
I declare under penalty of perjury under the laws of
the State of Michigan that the foregoing is true and
correct.
Further Affiant Sayeth Not.
Dated this 6th day of July, 2018.
/s/ E. Kalis________________
Erick Kalis
Subscribed and sworn to before me on this 6 day
of July, 2018.
_/s/ Linda G. Bingham______
Notary Public for the
State of Michigan
My Commission Expires:
__08-15-2023___________

43
LINDA G. BINGHAM
NOTARY PUBLIC – STATE
OF MICHIGAN
COUNTY OF WAYNE
My Commission Expires
August 15, 2023
Acting in the County of
Wayne

44
PETITION FOR WRIT OF SUPERVISORY
CONTROL – EXHIBIT C
___________
CARFAX® Vehicle History ReportTM
An independent company established in 1986
Vehicle Information:
1996 FORD EXPLORER

Branded Titles: Not Actual
Mileage, Rebuilt, Salvage

VIN: 1FMDU34XXTUB09265

3 Previous owners

4 DOOR WAGON/SPORT UTILITY

At least 1 open recall

4.0L V6 F

3 Service history records

GASOLINE

Personal vehicle

REAR WHEEL DRIVE W/ 4X4

Last owned in Montana

Standard Equipment | Safety
Options

This CARFAX Vehicle History Report is based only
on information supplied to CARFAX and available as
of 7/5/18 at 12:27:40 PM (CDT). Other information
about this vehicle, including problems, may not have
been reported to CARFAX. Use this report as one
important tool, along with a vehicle inspection and
test drive, to make a better decision about your next
used car.
Owner 1

Owner 2

Owner3

1996

2007

2009

Type of owner

Personal

Personal

Personal

Estimated length of ownership

11 yrs. 1
mo.

11 months

9 yrs. 2
mo.

See Details

Montana

Montana

8,977/yr

-

-

CARFAX Ownership
History
The number of owners is
estimated
Year purchased

Owned in the following
states/provinces
Estimated miles driven per
year

45
Last reported odometer
reading

100,213

-

-

CARFAX Title
History
CARFAX guarantees
the information in this
section

Owner 1

Owner 2

Owner 3

Salvage / Junk / Rebuilt
/ Fire / Flood / Hail /
Lemon

Alert!
Problem
Found

No Additional
Problems

No Additional
Problems

No Problem

No Problem

Alert!
Problem
Found

Not Actual Mileage /
Exceeds Mechanical
Limits

Alert! Severe problems were reported by a state Department of Motor
Vehicles (DMV). This vehicle does not qualify for the CARFAX
Buyback Guarantee.

CARFAX Additional
History

Owner 1

Owner 2

Owner 3

No Issues
Reported

No Issues
Reported

No Issues
Reported

No Issues
Reported

No Issues
Reported

No Issues
Reported

No Issues
Reported

No Issues
Reported

No Issues
Reported

No Issues
Indicated

No Issues
Indicated

Odometer
Problem

Not all accidents / issues
are reported to CARFAX.
Total Loss
No total loss reported to
CARFAX.
Structural Damage
No structural damage
reported to CARFAX.
Airbag Deployment
No airbag deployment
reported to CARFAX.
Odometer Check
DMV title problems
reported

46
Accident / Damage
DMV title problems
reported. Accident reported
on 05/22/2015
Manufacturer Recall
At least 1 manufacturer
recall requires service.
Locate an authorized Ford
or Lincoln Mercury dealer
or call 866-436-7332 to
obtain more information
about this recall
Basic Warranty
Original manufacturer
warranty likely voided by
manufacturer after vehicle
was severely damaged.

Severe
Damage

No New
Issues
Reported

Accident
Reported

No Recalls
Reported

No Recalls
Reported

Recall
Reported

Warranty
Voided

Warranty
Voided

Warranty
Voided

CARFAX Detailed History
Owner 1
Purchased:
1996
Type:
Personal
Where:
Oregon,
Washington,
Montana
Est.
miles/year:
8,977/yr
Est. length
owned:
2/13/96
4/12/07
(11yrs. 1
mo.)

Date:

Mileage:

10/23/
1995

02/13/
1996

74

Source:

Comments:

NICB

Vehicle manufactured and
shipped to
original dealer
Odometer
reading reported

Oregon
Motor Vehicle
Dept.
Weston, OR

03/01/
1996

Oregon
Motor Vehicle
Dept.
Weston, OR
Title
#9606119610

Title issued or
updated
First owner
reported
Titled or
registered as
personal vehicle
Loan or lien
reported

47
03/16/
1999

52,000

09/15/
1999

56,200

03/28/
2000

61,000

02/09/
2001

66,884

03/12/
2001

02/20/
2002

03/15/
2003

03/17/
2003

12/02/
2003

75,617

Washington
Inspection
Station
Spokane, WA
Washington
Motor Vehicle
Dept. Liberty
Lake, WA
Title
#9925838611
Washington
Inspection
Station
Spokane, WA
Gus Johnson
Ford Spokane
Valley, WA 509924-1000
gusjohnsonford.com
Washington
Motor Vehicle
Dept. Liberty
Lake, WA
Title
#9925838611
Washington
Motor Vehicle
Dept.
Spokane, WA
Washington
Inspection
Station
Spokane, WA
Washington
Motor Vehicle
Dept. Veradale,
WA
Washington
Motor Vehicle
Dept. Spokane,
WA
Title
#9925838611

Passed emissions
inspection

SALVAGE
TITLE/CERTIFI
CATE ISSUED
REBUILT TITLE
ISSUED
Passed emissions
inspection

Vehicle serviced

SALVAGE
TITLE/CERTIFI
CATE ISSUED
REBUILT TITLE
ISSUED
Registration
updated when
owner moved the
vehicle to a new
location
Passed emissions
inspection

Registration
updated when
owner moved the
vehicle to a new
location
Title or registration issued
Loan or lien
reported
Registration
updated when

48
owner moved the
vehicle to a new
location
03/26/
2005

87,202

03/29/
2005

03/30/
2005

87,300

03/21/
2006

09/29/
2006

04/12/
2007

100,20
1

06/04/
2007

100,21
3

Washington
Inspection
Station Spokane, WA
Autocraft Of
Spokane
Spokane Valley,
WA 509-9248738 autocraftspokane.com
Washington
Inspection
Station Spokane, WA
Washington
Motor Vehicle
Dept. Veradale,
WA
Title
#0333639207

Autocraft Of
Spokane
Spokane Valley,
WA 509-9248738 autocraftspokane.com
Montana
Motor Vehicle
Dept.
Montana
Motor Vehicle
Dept. Thompson
Falls, MT
Title #G868910

Failed emissions
inspection

Vehicle serviced

Passed emissions
inspection

REBUILT TITLE
ISSUED
Loan or lien
reported
Registration
updated when
owner moved the
vehicle to a new
location
Vehicle color
noted as Green
Serpentine belt
replaced
Brake pads
replaced

Vehicle purchase
reported
Registration
issued or
renewed
Loan or lien
reported
Vehicle color

49
noted as Green

Owner 2
Purchased:
2007
Type:
Personal
Where:
Montana
Est. length
owned:
7/13/07
6/15/08
(11
months)

Date:

Owner 3
Purchased:
2009
Type:
Personal
Where:
Montana
Est. length
owned:
4/24/09 present
(9 yrs 2
mo.)

Date:

Mileage:

07/13/
2007

Source:

Comments:

Montana
Motor Vehicle
Dept. Thompson
Falls, MT
Title #G868910

Title issued or
updated
New owner
reported
Loan or lien
reported
Vehicle color
noted as Green

Hold on, it looks like the rebuilt title from Washington
didn't get transferred to Montana when this vehicle was
sold. This may be a case of Title Washing. Get an
inspection before you buy.
Montana
Vehicle purchase
06/15/
Motor
Vehicle
reported
2008
Dept.
Montana
Title issued or
07/28/
Motor
Vehicle
updated
2008
Dept. Thompson Vehicle reposFalls, MT Title
sessed
#G868910
Vehicle color
noted as Green
Source:

Comments:
Vehicle purchase
reported

06/19/
2009

Montana
Motor Vehicle
Dept.
Montana
Motor Vehicle
Dept. Thompson
Falls, MT Title
#AA0065145

06/30/
2009

Montana
Motor Vehicle
Dept

04/24/
2009

Mileage:

Title or registration issued
New owner
reported
Loan or lien
reported
Vehicle color
noted as Green
NOT ACTUAL
MILEAGE

50
TITLE ISSUED
CARFAX
Advisor
A NAM title is
issued when the
owner discloses
to a DMV
mileage fraud, a
broken odometer
or that the
actual mileage of
this vehicle is
unknown.
Mileage reported
after this
reading is
potentially
unreliable.
10/05/
2009

Ford Motor
Company

Manufacturer
Safety recall
issued
NHTSA
#09V399000
Recall #09S09
SPEED
CONTROL
SYSTEM
MODIFICATIO
N
Status: Remedy
Available
Locate an
authorized Ford
or Lincoln
Mercury dealer
or call 866-4367332 to obtain
more information
Learn more
about this recall

Description: FORD IS RECALLING MODEL YEARS 1995-2003
WINDSTAR, 2000-2003 EXCURSION DIESEL, 1993-1997 AND 19992003 F-250 SD THROUGH F-550 SD DIESEL, 1992-2003 E-150
THROUGH E-550, 1995-2002 EXPLORER, 1997 AND 2002

51
MERCURY MOUNTAINEER, 1995-1997 AND 2001-2003 RANGER,
AND 1994 F53 VEHICLES EQUIPPED WITH THE TEXAS
INSTRUMENTS SPEED CONTROL DEACTIVATION SWITCH
(SCDS). THE SCDS MAY LEAK INTERNALLY AND THEN
OVERHEAT, SMOKE, OR BURN.
A VEHICLE FIRE COULD OCCUR WITH OR WITHOUT THE
ENGINE RUNNING.
Remedy: FORD WILL NOTIFY OWNERS THAT DEALERS WILL
INSTALL A FUSED WIRING HARNESS IN LINE WITH THE SCDS.
ON 1999-2003 WINDSTAR VEHICLES WITH A LEAKING SCDS,
DEALERS WILL ALSO INSPECT THE ABS CONTROL MODULE
CONNECTOR AND REPAIR AS NECESSARY. REPAIRS WILL BE
COMPLETED FREE OF CHARGE. THE SAFETY RECALL BEGAN
ON OCTOBER 27, 2009. OWNERS MAY CONTACT FORD AT 1-888222-2751.
08/16/2010

Montana
Motor Vehicle
Dept. Thompson
Falls, MT
Title
#AA0065145

09/14/2011

Montana
Motor Vehicle
Dept. Thompson
Falls, MT
Title
#AA0065145

08/29/2012

Montana
Motor Vehicle
Dept. Thompson
Falls, MT
Title
#AA0065145

07/31/2013

Montana
Motor Vehicle
Dept. Thompson
Falls, MT
Title
#AA0065145

08/06/2014

Montana
Motor Vehicle

Registration
issued or
renewed
Loan or lien
reported Vehicle
color noted as
Green
Registration
issued or
renewed
Loan or lien
reported Vehicle
color noted as
Green
Registration
issued or
renewed
Loan or lien
reported Vehicle
color noted as
Green
Registration
issued or
renewed
Loan or lien
reported Vehicle
color noted as
Green
Registration
issued or

52
Dept. Thompson
Falls, MT
Title
#AA0065145

renewed
Loan or lien
reported Vehicle
color noted as
Green
Avoid financial
headaches. Make
sure
the loan has
been paid
off if you're
buying from
a private seller.

05/22/2015

Montana
Damage Report

Accident
reported
Vehicle overturned
It hit a utility
pole / light
support
It hit an
embankment
Disabling
damage reported
Vehicle towed

Print this CARFAX Report and take it to your pre-purchase inspection
Have Questions? Please visit our Help Center at www.carfax.com

CARFAX Glossary
Accident Indicator
CARFAX receives information about accidents in all
50 states, the District of Columbia and Canada.
Not every accident is reported to CARFAX. As details
about the accident become available, those additional
details are added to the CARFAX Vehicle History
Report. CARFAX recommends that you have this
vehicle inspected by a qualified mechanic.


According to the National Safety Council, Injury Facts, 2015 edition, 8% of the 254 million

53
registered vehicles in the U.S. were involved
in an accident in 2013. Over 74% of these were
considered minor or moderate.


This CARFAX Vehicle History Report is based
only on information supplied to CARFAX and
available as of 7/5/18 at 12:27:40 PM (CDT).
Other information about this vehicle, including problems, may not have been reported to
CARFAX. Use this report as one important
tool, along with a vehicle inspection and test
drive, to make a better decision about your
next used car.

Montana Damage Reports:


Provide an estimate of the extent of damage in
its accident reports for the following:









SEVERE/TOTALED: The vehicle cannot be
driven from the accident scene due to severe damage or an injury. This level of
damage often results in a Salvage or Junk
title.
MODERATE: The accident damage affects
the operation of the vehicle and/or its
parts. Examples include broken windows,
trunk lids, doors, bumpers and tires.
FUNCTIONAL: The vehicle could be driven from the accident location.
MINOR: The accident damage does not affect the operation of the vehicle. Examples
Include dented bumpers, fenders, grills and
body panels. This level of accident should
not compromise vehicle safety.
NO DAMAGE: The vehicle was not damaged,

54


Are required if the estimated damage exceeds
$1000

Failed Emissions Inspection
The emissions check performed during a vehicle
inspection indicated the vehicle was emitting more
than allowable emissions standards and/or had
missing or modified parts. Repeated failed emissions
records can indicate engine problems and CARFAX
recommends you have the vehicle inspected.
Federal Odometer Act
The Federal Odometer Act requires a seller to disclose the vehicle’s mileage on the title when ownership is transferred. Congress enacted this Act to
prohibit odometer tampering and to protect consumers from mileage fraud. Under this act, sellers must
disclose any issues with the vehicle’s odometer,
These disclosures translate into the Exceed Mechanical Limits and Not Actual Mileage titles.
First Owner
When the first owner(s) obtains a title from a Department of Motor Vehicles as proof of ownership,
Ford or Lincoln Mercury Recall
The Ford Motor Company provides Carfax with Field
Service Action and recall information regarding
safety, compliance and emissions programs announced since 2000 for a specific vehicle. For complete information regarding programs or concerns
about this vehicle, please contact a local Ford or
Lincoln Mercury Dealer.
Manufacturer Recall
Automobile manufacturers issue recall notices to
inform owners of car defects that have come to the

55
manufacturer’s attention, Recalls also suggest improvements that can be made to improve the safety
of a particular vehicle. Most manufacturer recalls
can be repaired at no cost to you.
New Owner Reported
When a vehicle is sold to a new owner, the Title must
be transferred to the new owner(s) at a Department
of Motor Vehicles.
Not Actual Mileage Title
When the seller certifies, under the Federal Odometer Act, that the odometer reading does not reflect
the vehicle’s actual mileage. This may occur because
the odometer was tampered with, broken, or replaced.
Ownership History
CARFAX defines an owner as an individual or business that possesses and uses a vehicle. Not all title
transactions represent changes in ownership. To
provide estimated number of owners, CARFAX
proprietary technology analyzes all the events in a
vehicle history. Estimated ownership is available for
vehicles manufactured after 1901 and titled solely in
the US including Puerto Rico. Dealers sometimes opt
to take ownership of a vehicle and are required to in
the following states: Maine, Massachusetts, New
Jersey, Ohio, Oklahoma, Pennsylvania and South
Dakota. Please consider this as you review a vehicle’s
estimated ownership history.
Rebuilt/Reconstructed Title
A Rebuilt/Reconstructed vehicle is a salvage vehicle
that has been repaired and restored to operation.
These vehicles are often severely damaged before
they are rebuilt and refurbished parts are typically

56
used during reconstruction. In most states, an inspection of the vehicle is required before the vehicle
is allowed to return to the road.
Repossession
When a repossession occurs a vehicle owner fails to
make loan payments, and the financial institution
holding the title takes possession of the vehicle.
Salvage Title
A Salvage Title is issued on a vehicle damaged to the
extent that the cost of repairing the vehicle exceeds
approximately 75% of its pre-damage value. This
damage threshold may vary by state. Some states
treat Junk titles the same as Salvage but the majority use this title to indicate that a vehicle is not road
worthy and cannot be titled again in that state. The
following eleven states also use Salvage titles to
identify stolen vehicles - AZ, FL, GA, IL, MD, MN,
NJ, NM, NY, OK and OR.
Title Issued
A state issues a title to provide a vehicle owner with
proof of ownership. Each title has a unique number.
Each title or registration record on a CARFAX report
does not necessarily indicate a change in ownership.
In Canada, a registration and bill of sale are used as
proof of ownership.
Title Washing
Title Washing is the process through which a vehicle’s title is altered to conceal information that would
normally be included. This can be accomplished by
either physically altering printed documents or
reapplying for a title without disclosing its prior
history. Since the CARFAX database retains information about branded titles from all 50 states and

57
the Canadian provinces, the CARFAX Report may
help uncover potential title washing.
Follow
Us:
facebook.com/CARFAX
@CarfaxReports CARFAX on Google

14p

CARFAX DEPENDS ON ITS SOURCES FOR THE
ACCURACY
AND
RELIABILITY
OF
ITS
INFORMATION.
THEREFORE,
NO
RESPONSIBILITY IS ASSUMED BY CARFAX OR
ITS AGENTS FOR ERRORS OR OMISSIONS IN
THIS REPORT. CARFAX
FURTHER
EXPRESSLY
DISCLAIMS
ALL
WARRANTIES,
EXPRESS
OR
IMPLIED,
INCLUDING ANY IMPLIED WARRANTIES OF
MERCHANTABILITY OR FITNESS FOR A
PARTICULAR PURPOSE. CARFAX®
2018 CARFAX, Inc., a unit of IHS Markit. All rights
reserved.
Covered by United States Patent Nos, 7,113,853;
7,778,841;
7,596,512,
8,600,823;
8,595,079;
8,606,648; 7,505,838.
7/5/18 12:27:40 PM (CDT)

58
STATE OF MINNESOTA
COUNTY OF HENNEPIN DISTRICT COURT
FOURTH JUDICIAL DISTRICT
Case Type: Personal Injury
___________
ADAM BANDEMER,
Plaintiff,
v.
FORD MOTOR COMPANY, ERIC HANSON
& GREG HANSON,
Defendants.
___________
COMPLAINT
___________
THE PARTIES
Plaintiff ADAM BANDEMER is an individual who
is domiciled in Crow Wing County, Minnesota.
Defendant ERIC HANSON is an individual who is
domiciled in Todd County, Minnesota. Defendant
Hanson resides at 27159 Cty. 26, Browerville, MN
56438.
Defendant GREG HANSON is an individual who is
domiciled in Todd County, Minnesota. Defendant
Hanson resides at 27159 Cty. 26, Browerville, MN
56438.
Defendant FORD MOTOR COMPANY, hereinafter
referred to as “FORD” is a foreign corporation organized in Delaware with a principle place of business
in Michigan, who conducts business within the state
of Minnesota. FORD may be served through its
registered agent CT Corporation System Inc. at 100

59
South Fifth Street, Suite #1075 Minneapolis, MN
55402, USA.
STATEMENT OF FACTS
On January 8, 2015 Plaintiff Adam Bandemer was
the passenger traveling in a 1994 Ford Crown Victoria VIN No. 2FALP73WXRX136741 (hereinafter
referred to as “the subject vehicle”), operated by
Defendant Eric Hanson. The subject vehicle was
traveling westbound on Azalea Road when Defendant Eric Hanson struck a snow plow truck from
behind, eventually landing in a roadside ditch. The
subject vehicle received significant frontal impact
damage. The airbags of the subject vehicle did not
deploy. Plaintiff suffered a severe brain injury as a
result of the impact.
STATEMENT OF LAW
When Defendant Ford manufactured the subject
1994 Crown Victoria, they had a duty to use reasonable care to design the vehicle so that it was not
unreasonably dangerous to users and those exposed
to the vehicle when it was used as intended, and or
used in a way that the Defendant Ford reasonably
could have anticipated.
When Defendant Ford designed and manufactured
the subject vehicle, they had a duty to keep up with
scientific knowledge and advances in the field. Defendant Ford had a duty to design its vehicle according to the knowledge and advances that existed in
the field at the time the vehicle was designed and
sold.
Defendant Ford had a duty to provide reasonable
warnings for its vehicle.

60
Defendant Ford had a duty to not sell a defective
automobile: An automobile is defective if it is in a
condition unreasonably dangerous to the ordinary
user. A defect in a product such as the subject Ford
automobile may be caused by the way it was designed, manufactured, assembled, inspected and or
tested. Further, an automobile is defective if not
accompanied by appropriate warnings about any
dangerous conditions of the vehicle.
Defendant Ford had a duty to use reasonable care
to protect people, such as Adam Bandamer from
being exposed to an unreasonable risk of harm from
its product.
Defendant Ford had a duty to use reasonable care
after the manufacture and sale of the subject Ford
vehicle to provide post sale warnings of product
dangers to those that may be exposed to harm.
Defendant Ford is legally responsible for a defect in
any component part of the subject vehicle.
CAUSE OF ACTION ONE
NEGLIGENCE AGAINST HANSON
DEFENDANTS
On or about January 8, 2015, Defendant Eric Hanson breached a legal duty of care owed to Plaintiff.
Specifically, Defendant Eric Hanson was negligent in
the operation of a motor vehicle and caused the
collision which resulted in the injuries sustained by
Plaintiff.
Defendant Eric Hanson’s acts and/or omissions
constitute a failure to use ordinary care and was a
proximate and producing cause of Plaintiffs injuries
and damages as described more thoroughly herein.
Defendant Hanson is therefore liable to Plaintiff for

61
the personal injuries and damages sustained as a
direct result of his negligence.
That all times material, Eric Hanson was operating
a motor vehicle legally owned and titled to his father,
Defendant Greg Hanson with his consent, express
and/or implied, and therefore Eric Hanson is deemed
the agent of the owner within the meaning of Minn.
Stat §169.09, subdivision 5a. As a result, Defendant
Greg Hanson is vicariously and statutorily liable for
the negligent acts and omissions of Defendant Eric
Hanson.
CAUSE OF ACTION TWO
STRICT LIABILITY AGAINST DEFENDANT
FORD
Defendant Ford is the manufacturer of the subject
vehicle, which is defective and unreasonably dangerous in its design and manufacture as marketed.
Defendant Ford is liable to the Plaintiff on the basis
of strict liability because it designed, manufactured,
advertised, marketed, tested, inspected, furnished,
sold and distributed the subject vehicle by placing it
into the stream of commerce when it was neither
merchantable nor reasonably suited for the use for
which it was intended and was otherwise defective
and unreasonably dangerous. At the time of the
incident made the basis of Plaintiff’s Complaint, the
subject vehicle was in substantially the same condition as when designed, manufactured, furnished,
sold and/or distributed, and the defective nature of
the subject vehicle was the proximate and producing
cause of the injuries and damages sustained by
Plaintiff.

62
The defective airbag system sold by Defendant
Ford contained an airbag system that failed to deploy
upon significant frontal impact of the 1994 Crown
Victoria.
The subject 1994 Crown Victoria and its component
parts were also in a defective and unreasonably
dangerous condition at the time of the aforesaid
occurrence in that:
a. The passenger front airbag inflators were
defectively and/or inadequately designed,
tested, manufactured, assembled and installed as they should have deployed during the subject impact.
b. The vehicle was not reasonably crashworthy.
c. The passenger side airbag and its component parts were defective due to inadequate or absent warnings and/or proper notice to alert users regarding the hazardous
conditions, as herein described, involving
their use and operation both before the sale
of the Ford vehicle and thereafter.
The unreasonably dangerous nature of the subject
vehicle created a high probability that the vehicle,
when involved in foreseeable frontal impacts, would
result in severe and permanent personal injuries.
Defendant Ford knew or should have known of the
risks associated with the use and operation of the
vehicle prior to production and marketing of the
subject vehicle, and in a conscious disregard of the
consequences, willfully, wantonly, and recklessly
manufactured and sold the subject vehicle. The
aforesaid defects in the subject vehicle were not

63
known to the Plaintiff and were not discoverable
through reasonable inspection.
CAUSE OF ACTION THREE
NEGLIGENCE AGAINST DEFENDANT FORD
At the time Defendant Ford designed, developed,
manufactured, engineered, tested, marketed, inspected, distributed and/or sold the subject vehicle, it
had a duty to exercise reasonable care in order to
provide a safe product and to design, manufacture,
engineer, test, inspect, market, distribute and sell
the product so as not to subject occupants to an
unreasonable risk of injury, harm or death.
CAUSE OF ACTION FOUR
BREACH OF WARRANTY AGAINST
DEFENDANT FORD
Defendant Ford breached express and implied warranties of merchantability and fitness for a particular purpose to the motoring public and specifically to
foreseeable users including the Plaintiff regarding
the safety and crashworthiness of the subject vehicle.
The defective airbag system sold and placed into
the stream of commerce by Defendant Ford was done
with the representation to the motoring public and to
Plaintiff that it was safe. The vehicle was used in a
manner reasonably intended to be used and which
Defendant Ford anticipated its use. Because of the
aforementioned defects in the design, manufacture,
marketing and Defendants’ carelessness and negligence, the airbag system failed, causing significant
permanent injuries to Plaintiff. The failure of the
airbag system was a breach of the warranty of merchantability, fitness for a particular purpose and the
express warranty that the vehicle was safe and

64
crashworthy. The breaches of the warranties were
direct and proximate causes of the injuries and
damages sustained by Plaintiff.
DAMAGES
As a direct and proximate result of the negligent,
careless, willful, wanton, fraudulent and intentional
conduct of the named defendants, Plaintiff Adam
Bandemer sustained severe, painful and permanent
injuries including a lifelong lasting brain injury and
disfigurement, thus satisfying the thresholds set
forth in Minn. Stat § 65B.51. His injuries have in the
past and will in the future require Plaintiff to incur
substantial medical costs for care and treatment
thus satisfying the thresholds set forth in Minn. Stat
§ 65B.51; that said injuries have in the past and will
in the future cause pain, disability, disfigurement,
emotional distress and loss of enjoyment of life; that
Plaintiff Adam Bandemer has in the past and will in
the future suffer lost wages and a permanent diminution in earning capacity.
WHEREFORE, Plaintiff prays for judgment
against each Defendant in an amount in excess of
Fifty Thousand and no/100 ($50,000.00) Dollars
together with interest, costs and disbursements
incurred herein and for such other and further relief
that the Court deems just and equitable, including
pre and post-verdict interest.

65
I hereby acknowledge that sanctions may be
awarded pursuant to Minn. Stat § 549.211.
KASTER LYNCH FARRAR & BALL, LLP
Dated: September 2, 2016

By /s/ Kyle Farrar_____
Kyle W. Farrar
St. Bar No. 0397942
kvle@fbtrial.com
William R Ogden
bill@fbtrial.com
Kaster, Lynch, Farrar &
Ball, LLP
1010 Lamar, Suite 1600
Houston, Texas 77002
Telephone: 713-221-8300
&
Steven D. Lastovich,
Ltd.
Steven D. Lastovich
13073 Evergreen Drive
PO Box 2906
Baxter, MN 56425
Telephone: 218-828-9670
ATTORNEYS FOR THE
PLAINTIFF

66
STATE OF MINNESOTA
COUNTY OF TODD DISTRICT COURT
SEVENTH JUDICIAL DISTRICT COURT
Case Type: Product Liability
___________
ADAM BANDEMER,
Plaintiff,
v.
FORD MOTOR COMPANY, ERIC HANSON
& GREG HANSON,
Defendants.
___________
Court File No.: 77-CV-16-1025
___________
FORD MOTOR COMPANY’S RESPONSE TO
PLAINTIFF’S FIRST SET OF
JURISDICTIONAL REQUEST FOR
ADMISSIONS
___________
Defendant Ford Motor Company (“Ford”), by and
through counsel, responds to Plaintiff’s First Set of
Jurisdictional Requests for Admissions as follows:
PRELIMINARY STATEMENT
Ford provides these Responses subject to and without waiving its jurisdictional objections set forth in
Ford’s forthcoming Motion to Dismiss for Lack of
Personal Jurisdiction (“Motion to Dismiss”), which
will be heard on February 3, 2017, specifically that
this Court does not have personal jurisdiction over
Ford in this case. In particular, Ford is not “at home”

67
in Minnesota for purposes of general jurisdiction
because (1) Ford is incorporated in Delaware and (2)
its principal place of business is in Michigan. Further, Ford is not subject to specific jurisdiction
because this suit does not arise from any Ford conduct in Minnesota. Plaintiff’s vehicle was not manufactured or first sold by Ford in Minnesota, and Ford
had nothing to do with the vehicle’s entry into the
State. Plaintiff’s vehicle was also not designed by
Ford in Minnesota. Ford did not ship the vehicle to
Minnesota. The subject Crown Victoria was assembled at Ford’s St. Thomas Assembly plant located in
Ontario, Canada, then later sold to an independently-owned Ford dealership in Bismarck, North Dakota.
By providing certain information in response to
Plaintiff’s discovery, Ford does not concede that such
information is relevant to the inquiry regarding
whether this Court has personal jurisdiction over
Ford in this case.
These Responses are made solely for the purpose of
this action. Ford has not completed its investigation
of the facts relating to this matter and discovery is
continuing. Accordingly, the following Responses are
based upon, and therefore necessarily limited by, the
records and information still in existence, presently
recollected and thus far discovered in the course of
preparing these responses. Ford reserves the right to
produce at trial or at any hearing on Ford’s challenge
to personal jurisdiction and make reference to any
evidence, facts, documents or information not yet
discovered, or the relevance of which has not yet
been identified, by Ford or its counsel.

68
Ford does not stipulate or otherwise admit that
documents and other materials are deemed authentic, relevant or admissible merely because such
materials were produced by Ford in this litigation.
REQUESTS FOR ADMISSION
1. Admit Ford Motor Company advertises in
Minnesota.
RESPONSE: Ford admits that it designs and directs
the substance of advertising for Ford vehicles in
nationally-based television, print, and online media,
which may reach the Minnesota market as well as
other U.S. markets. Ford also admits that, in some
circumstances, Ford may send direct mail to consumers related to various Ford products and/or
services, which may reach the Minnesota market as
well as throughout the United States. Ford otherwise
denies this Request because regional advertising is
directed by 37 different Ford Dealer Advertising
Funds (“FDAFs”). FDAFs are run by boards composed of representatives from independently owned
and operated Ford dealerships, not Ford employees.
While Ford may provide some creative content for
the FDAFs’ use, FDAFs decide which advertisements
to run in their particular region.
Ford otherwise objects to this Request as overly
broad because it does not identify any particular
aspect of marketing or a reasonable or relevant time
frame. It is also not relevant to establishing whether
this Court has personal jurisdiction (general or
specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit.

69
2. Admit Ford dealerships located in Minnesota
communicate with Ford Motor Company regarding
service and repairs of vehicles through the OASIS
system.
RESPONSE: Ford admits that Ford dealerships,
including those located in Minnesota, may access the
OASIS system, which provides dealers with certain
vehicle and technical service information and may
contain information regarding the service or repair of
Ford vehicles.
3. Admit Ford Motor Company sends direct mail
advertisements to residents of Minnesota.
RESPONSE: Ford admits that it designs and directs
the substance of advertising for Ford vehicles in
nationally-based television, print, and online media,
which may reach the Minnesota market as well as
other U.S. markets, Ford also admits that, in some
circumstances, Ford may send direct mail to consumers related to various Ford products and/or
services, which may reach the Minnesota market as
well as throughout the United States. Ford otherwise
denies this Request because regional advertising is
directed by 37 different Ford Dealer Advertising
Funds (“FDAFs”). FDAFs are run by boards composed of representatives from independently owned
and operated Ford dealerships, not Ford employees.
While Ford may provide some creative content for
the FDAFs’ use, FDAFs decide which advertisements
to run in their particular region.
Ford otherwise objects to this Request as overly
broad because it does not identify any particular

70
aspect of advertising or a reasonable or relevant time
frame. It is also not relevant to establishing whether
this Court has personal jurisdiction (general or
specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit.
4. Admit there are over twenty licensed Ford
dealerships located in the state of Minnesota.
RESPONSE: Ford admits this Request. Ford also
admits there are Ford dealerships located throughout the United States; in 2016, there were approximately 3,238 independently owned Ford dealerships
in the United States. Ford further admits that Ford
dealerships are independently-owned and operated.
5. Admit Ford Motor Company operated an assembly plant in Minnesota until 2011.
RESPONSE: Ford admits this Request. Ford denies
that the subject vehicle was assembled at the Minnesota assembly plant.
6. Admit Ford Motor Company conducted its
2016 “Ford Experience Tour” in Minnesota in 2016.
RESPONSE: Ford admits that Ford conducted its
2016 “Ford Experience Tour” in Minnesota, as well
as in other states.

71
7. Admit Ford Motor Company licensed its 1966
Ford Mustang to build a model car for the Minnesota
Vikings.
RESPONSE: Ford admits this Request.
8. Admit that Ford Motor Company owns the
property at 966 Mississippi Blvd S, St. Paul, MN.
RESPONSE: Ford admits this Request.
9. Admit that Ford Motor Company owns real
property in Minnesota with an aggregate tax value of
over $30,000,000.
RESPONSE: Ford will submit its response to this
Request as Exhibit A, pursuant to a protective order
entered in this case.
10. Admit that Ford Motor Company sponsored
the Ford Driving Skills for Life Free National Teen
Driver Training Camp in Minnesota.
RESPONSE: Ford admits that it sponsored Ford
Driving Skills for Life Free National Teen Driver
Training Camp in Minnesota, as well as in other U.S.
markets.
11. Admit Ford Motor Company is a member of
the Alliance of Automotive Manufacturers.
RESPONSE: Ford admits this Request.

72
12. Admit that the Alliance of Automotive Manufacturers filed a lawsuit in Minnesota Federal Court
in 2015 when Ford Motor Company was a member.
RESPONSE: Ford admits this Request.
13. Admit Ford Motor Company sued Denny
Hecker’s Stillwater Ford, Lincoln, Mercury, Inc. in
Minnesota federal court.
RESPONSE: Ford admits that it sued Denny Hecker’s Stillwater Ford, Lincoln, Mercury, Inc., in Minnesota Federal Court in 2009.
14. Admit Ford Motor Company is a coalition
member of the Twin City’s Clean Air Choice initiative.
RESPONSE: Ford admits this Request.
15. Admit that Ford Motor Company is registered
to do business in Minnesota pursuant to Minnesota
Statutes, Chapter 303.
RESPONSE: Ford admits this Request, as required
by Minnesota Statute § 303.03.
16. Admit that Ford Motor Company maintains a
registered agent in Minnesota pursuant to Minnesota Statutes, Chapter 303.
RESPONSE: Ford admits this Request, as required
by Minnesota Statute § 303.10.

73
17. Admit that warranties over Ford Motor Company vehicles are applicable to vehicles operated on
the roadways of Minnesota.
RESPONSE: Ford admits that its new vehicles and
certified pre-owned vehicles are accompanied with a
limited warranty, and the limited warranties speak
for themselves. To the extent this Request seeks an
admission inconsistent with the statements contained in the limited warranties, denied.
Although Ford responded to this Request, Ford
does not agree it is relevant to establishing whether
this Court has personal jurisdiction (general or
specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit.
18. Admit Ford Motor Company engages in advertising specific to or targeted to the Minnesota market.
RESPONSE: Ford admits that it designs and directs
the substance of advertising for Ford vehicles in
nationally-based television, print, and online media,
which may reach the Minnesota market as well as
other U.S. markets. Ford also admits that, in some
circumstances, Ford may send direct mail to consumers related to various Ford products and/or
services, which may reach the Minnesota market as
well as throughout the United States. Ford otherwise
denies this Request because regional advertising is
directed by 37 different Ford Dealer Advertising
Funds (“FDAFs”). FDAFs are run by boards composed of representatives from independently owned

74
and operated Ford dealerships, not Ford employees.
While Ford may provide some creative content for
the FDAFs’ use, FDAFs decide which advertisements
to run in their particular region.
Ford otherwise objects to this Request as overly
broad because it does not identify any particular
aspect of advertising or a reasonable or relevant time
frame. It is also not relevant to establishing whether
this Court has personal jurisdiction (general or
specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit.
19. Admit Ford dealerships located in Minnesota
communicate with Ford Motor Company regarding
service and repairs of vehicles through the OASIS
system.
RESPONSE: Ford admits only that Ford dealerships, including those located in Minnesota, may
access the OASIS system, which provides dealers
with certain vehicle and technical service information and may contain information regarding the
service or repair of Ford vehicles.
20. Admit Ford Motor Company sends direct mail
advertisements to residents of Minnesota.
RESPONSE: Ford admits that it designs and directs
the substance of advertising for Ford vehicles in
nationally-based television, print, and online media,
which may reach the Minnesota market as well as
other U.S. markets. Ford also admits that, in some

75
circumstances, Ford may send direct mail to consumers related to various Ford products and/or
services, which may reach the Minnesota market as
well as throughout the United States. Ford otherwise
denies this Request because regional advertising is
directed by 37 different Ford Dealer Advertising
Funds (“FDAFs”). FDAFs are run by boards composed of representatives from independently owned
and operated Ford dealerships, not Ford employees.
While Ford may provide some creative content for
the FDAFs’ use, FDAFs decide which advertisements
to run in their particular region.
Ford otherwise objects to this Request as overly
broad because it does not identify any particular
aspect of advertising or a reasonable or relevant time
frame. It is also not relevant to establishing whether
this Court has personal jurisdiction (general or
specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit.
21. Admit there are over twenty licensed Ford
dealerships located in the state of Minnesota.
RESPONSE: Ford admits this Request. Ford also
admits there are Ford dealerships located throughout the United States; in 2016, there were approximately 3,238 independently-owned Ford dealerships
in the United States. Ford further admits that Ford
dealerships are independently-owned and operated.
22. Admit Ford Motor Company operated an assembly plant in Minnesota until 2011.

76
RESPONSE: Ford admits this Request. Ford denies
that the subject vehicle was assembled at the Minnesota assembly plant.
23. Admit Ford Motor Company conducted its
2016 “Ford Experience Tour” in Minnesota in 2016.
RESPONSE: Ford admits that Ford conducted its
2016 “Ford Experience Tour” in Minnesota, as well
as in other states.
24. Admit Ford Motor Company licensed its 1966
Ford Mustang to build a model car for the Minnesota
Vikings.
RESPONSE: Ford admits this Request.
25. Admit that Ford Motor Company owns the
property at 966 Mississippi Blvd S, St. Paul, MN.
RESPONSE: Ford admits this Request.
26. Admit that Ford Motor Company owns real
property in Minnesota with an aggregate tax value of
over $30,000,000.
RESPONSE: Ford will submit its response to this
Request as Exhibit A, pursuant to protective order
entered in this case.
27. Admit that Ford Motor Company sponsored
the Ford Driving Skills for Life Free National Teen
Driver Training Camp in Minnesota.

77
RESPONSE: Ford admits that it sponsored Ford
Driving Skills for Life Free National Teen Driver
Training Camp in Minnesota, as well as in other U.S.
markets.
28. Admit Ford Motor Company is a member of
the Alliance of Automotive Manufacturers.
RESPONSE: Ford admits this Request.
29. Admit that the Alliance of Automotive Manufacturers filed a lawsuit in Minnesota federal Court
in 2015 when Ford Motor Company was a member.
RESPONSE: Ford admits this Request.
30. Admit Ford Motor Company sued Denny
Hecker’s Stillwater Ford, Lincoln, Mercury, Inc. in
Minnesota federal court.
RESPONSE: Ford admits that it sued Denny Hecker’s Stillwater Ford, Lincoln, Mercury, Inc., in Minnesota Federal Court in 2009.
31. Admit Ford Motor Company is a coalition
member of the Twin City’s Clean Air Choice initiative.
RESPONSE: Ford admits this Request.
32. Admit that Ford markets its vehicles with the
promise that service for the vehicle is available at
any Ford Dealer in the 50 states.

78
RESPONSE: Ford admits that its new and certified
pre-owned vehicles are accompanied with an owner
guide, warranty guide and limited warranty, which
contain information regarding service and repair
work, and those documents speak for themselves. To
the extent this Request seeks an admission inconsistent with the statements contained in the owner
guide, warranty guide and limited warranty, denied.
Although Ford responded to this Request, Ford
does not agree it is relevant to establishing whether
this Court has personal jurisdiction (general or
specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit.
33. Admit that between 2000 and the present,
Ford engaged in marketing through sponsorship of
athletic and racing events in Minnesota.
RESPONSE: Ford admits that it engages in sponsorship of athletic and racing events in Minnesota, as
well as other U.S. Markets.
34. Admit that Ford certifies mechanics who work
at the Ford dealerships in Minnesota.
RESPONSE: Ford admits that it provides certain
training and certifications for Ford dealership technicians, personnel or mechanics, (e.g. for certain
warranty repairs) that work in Ford service centers
across the country, including in Minnesota.
Beyond this, Ford objects to this Request as overly
broad, particularly as it does not specify which

79
mechanic is being referenced, what Ford dealership
is being referenced, what certification is being referenced, or at what point in time.
35. Admit that Ford sends recall notices related to
safety defects into Minnesota.
RESPONSE: Ford admits this Request, as well as
into other states.
36. Admit that Ford sends technical service bulletins regarding work procedures related to Ford
products into Minnesota.
RESPONSE: Ford admits this Request, as well as
into other states.
37. Admit that Ford gathers data about its vehicle
performance in Minnesota and uses that data in the
redesign of its products.
RESPONSE: Ford admits that it receives information regarding vehicle performance across the
United States, including in Minnesota, and that
information may be used by Ford as it considers
future designs.
Beyond this, Ford objects to this Request as overly
broad and vague, particularly because it does not
specify the “data,” vehicle, make, or model being
referenced, the design at issue, or a particular time
period.
38. Admit that Ford’s Critical Concern Review
Group determines whether or not design and manu-

80
facturing issues raise safety concerns based in part
on Ford’s Global Common Quality Indicatory System
(“CQIS” or “GCQIS”) database of information Ford
gathers from dealerships, including Ford’s dealerships in Minnesota, and that Ford uses this data to
redesign its products sold into Minnesota and elsewhere.
RESPONSE: Denied as stated. Ford’s CCRG group
may analyze a variety of information which may or
may not include information from GCQIS.
Beyond this, Ford objects to this Request as overly
broad, particularly as it does not identify the make,
model, the purported safety concern or issue, or a
time frame.
39. Admit that Ford holds trademarks which it
enforces in Minnesota.
RESPONSE: Ford assumes this Request relates to
U.S. trademarks held by Ford. Further, by “enforces,” Ford assumes that Plaintiff means enforcement
of trademarks with respect to litigation. Based on
these assumptions, Ford denies this Request.
Beyond this, Ford objects to this Request as overly
broad and vague and Ford is unclear what else
Plaintiff is seeking.
40. Admit that Ford holds patents which it enforces in Minnesota.
RESPONSE: Ford assumes this Request relates to
U.S. patents held by Ford. Further, by “enforces,”
Ford assumes that Plaintiff means enforcement of

81
patents with respect to litigation. Based on these
assumptions, Ford denies this Request.
Beyond this, Ford objects to this Request as overly
broad and vague and Ford is unclear what else
Plaintiff is seeking.
41. Admit that Ford has contractual agreements
with Minnesota companies to use Ford’s trademarks
within Minnesota.
RESPONSE: To the extent this Request is referring
to Ford’s agreements with independently-owned and
authorized dealerships, Ford admits that Sales and
Service Agreement contains provisions governing use
of trademarks. Ford admits the terms of that agreement speak for themselves.
Ford otherwise objects to this Request as overly
broad and unduly burdensome as it fails to reference
which Minnesota company is at issue, the trademark
being referenced, or limit the inquiry to a reasonable
timeframe.
42. Admit Ford Motor Company built the Northland Edition F-150 for the Minnesota market.
RESPONSE: Ford admits that Ford built a Northland Edition F-150 for the Minnesota and other
markets including North Dakota, South Dakota,
Iowa, Wisconsin, and Nebraska.
43. Admit Ford Motor Company built the Northland Edition F-150 for a market which included the
state of Minnesota.

82
RESPONSE: Ford admits that Ford built a Northland Edition F-150 for the Minnesota and other
markets including North Dakota, South Dakota,
Iowa, Wisconsin, and Nebraska.
BOWMAN AND
BROOKE LLP
December 12 , 2016

/s/ Michael R. Carey
Michael R. Carey (MN
#0388271)
Scholastica N.S. Baker
(MN #0396369)
150 South Fifth Street,
Suite 3000
Minneapolis, Minnesota
55402
Tel: (612) 339-8682
Fax: (612) 672-3200
ATTORNEYS FOR
DEFENDANT
FORD MOTOR
COMPANY

83
STATE OF MINNESOTA
COUNTY OF TODD DISTRICT COURT
SEVENTH JUDICIAL DISTRICT
Case Type: Product Liability
___________
ADAM BANDEMER,
Plaintiff,
v.
FORD MOTOR COMPANY, ERIC HANSON
& GREG HANSON,
Defendants.
___________
Court File No.: 77-CV-16-1025
___________
FORD MOTOR COMPANY’S RESPONSE AND
OBJECTIONS TO PLAINTIFF’S FIRST SET OF
JURISDICTIONAL REQUEST FOR
PRODUCTION
___________
Defendant Ford Motor Company (“Ford”), by and
through counsel, responds and objects to Plaintiffs
First Set of Jurisdictional Requests for Production as
follows:
PRELIMINARY STATEMENT
Ford provides these Responses subject to and without waiving its jurisdictional objections set forth in
Ford’s forthcoming Motion to Dismiss for Lack of
Personal Jurisdiction (“Motion to Dismiss”), which
will be heard on February 3, 2017, specifically that

84
this Court does not have personal jurisdiction over
Ford in this case. In particular, Ford is not “at home”
in Minnesota for purposes of general jurisdiction
because (1) Ford is incorporated in Delaware and (2)
its principal place of business is in Michigan. Further, Ford is not subject to specific jurisdiction
because this suit does not arise from any Ford conduct in Minnesota. Plaintiff’s vehicle was not manufactured or first sold by Ford in Minnesota, and Ford
had nothing to do with the vehicle’s entry into the
State. Plaintiff’s vehicle was also not designed by
Ford in Minnesota. Ford did not ship the vehicle to
Minnesota. The subject Crown Victoria was assembled at Ford’s St. Thomas Assembly plant located in
Ontario, Canada, then later sold to an independently-owned Ford dealership in Bismarck, North Dakota. By providing certain information in response to
Plaintiff’s discovery, Ford does not concede that such
information is relevant to the inquiry regarding
whether this Court has personal jurisdiction over
Ford in this case.
These Responses are made solely for the purpose of
this action. Ford has not completed its investigation
of the facts relating to this matter and discovery is
continuing. Accordingly, the following Responses are
based upon, and therefore necessarily limited by, the
records and information still in existence, presently
recollected and thus far discovered in the course of
preparing these responses. Ford reserves the right to
produce at trial or at any hearing on Ford’s challenge
to personal jurisdiction and make reference to any
evidence, facts, documents or information not yet
discovered, or the relevance of which has not yet
been identified, by Ford or its counsel.

85
Ford does not stipulate or otherwise admit that
documents and other materials are deemed authentic, relevant or admissible merely because such
materials were produced by Ford in this litigation.
REQUEST FOR PRODUCTION
1. Produce the complaints in all lawsuits filed by
Ford Motor Company in state or federal court in
Minnesota.
RESPONSE: Ford located one lawsuit filed by Ford
Motor Company in Minnesota (State or Federal
Court) during the 2000-2016 time period: Ford Motor
Company v. Stillwater Ford, Lincoln-Mercury, Inc.
Ford will produce a copy of the Complaint from this
lawsuit.
Beyond this, Ford objects to this Request as overly
broad and seeks irrelevant information, particularly
in that it is not limited to a reasonable or relevant
time frame, it is not specific to any particular allegation, and is not specific to any particular claim or
lawsuit. It is also not relevant to establishing
whether
this
Court
has
personal
jurisdiction (general or specific) over Ford in this
case and it seeks information unrelated to the subject vehicle (a 1994 Ford Crown Victoria), the Plaintiff, or the underlying claims in this lawsuit. Further,
this Request seeks information that is otherwise
publically available. Plaintiff may obtain and research the public dockets of Minnesota state or
federal courts to find responsive information.
2. Produce all indemnity contracts/agreements
between Ford Motor Company and all Minnesota
Ford dealerships.

86
RESPONSE: Ford will produce a copy of the Sales
and Service Agreement standard provisions that are
generally made a part of any specific Sales and
Service Agreement with an independent, authorized
Ford/Lincoln dealership, including those located in
Minnesota. Ford states that the Sales and Service
Agreement contains information regarding indemnification and contains information responsive to this
Request.
Beyond this, Ford objects to this Request as overly
broad, unduly burdensome, and seeks irrelevant
information, particularly in that it is not limited to a
reasonable or relevant time frame, it is not specific to
any particular dealership, and is not specific to any
particular claim or lawsuit. In addition, it is not
relevant to establishing whether this Court has
personal jurisdiction (general or specific) over Ford
in this case and it seeks information unrelated to the
subject vehicle (a 1994 Ford Crown Victoria), the
Plaintiff, or the underlying claims in this lawsuit.
Finally, Ford objects to this Request as it relates to
indemnification because it could seek information
protected by the work product doctrine, common
interest privilege or joint defense privilege if related
to pending or anticipated litigation.
3. Produce all Ford Motor Company contracts
with Minnesota Ford dealerships.
RESPONSE: Ford will produce a copy of the Sales
and Service Agreement standard provisions that are
generally made a part of any specific Sales and
Service Agreement with an independent, authorized

87
Ford/Lincoln dealership, including those located in
Minnesota.
Beyond this, Ford objects to this Request as overly
broad, unduly burdensome, and seeks irrelevant
information, particularly in that it is not limited to a
reasonable or relevant time frame, it is not specific to
any particular dealership, and is not specific to any
particular claim or lawsuit. In addition, it is not
relevant to establishing whether this Court has
personal jurisdiction (general or specific) over Ford
in this case and it seeks information unrelated to the
subject vehicle (a 1994 Ford Crown Victoria), the
Plaintiff, or the underlying claims in this lawsuit.
Finally, Ford objects to this Request because it could
seek information protected by the work product
doctrine, common interest privilege or joint defense
privilege if related to pending or anticipated litigation.
4. Produce the VIN FSA Details document regarding the subject vehicle.
RESPONSE: Ford will produce the VIN FSA Details
document regarding the subject vehicle.
5. Produce all written agreements concerning
advertising funds related to the marketing or advertisements of Ford products in Minnesota to the
extent that such agreements were in force at any
time from 2000 to the present and were either executed in Minnesota or agreed by persons or corporate
entities in Minnesota.

88
RESPONSE: Ford refers Plaintiff to the Sales and
Service Agreement offered in response to Request for
Production No. 2, herein, which contains information
regarding sales and advertising. Ford further states
that regional advertising is directed by 37 different
Ford Dealer Advertising Funds (“FDAFs”). FDAFs
are run by boards composed of representatives from
independently owned and operated Ford dealerships,
not Ford employees. While Ford may provide some
creative content for the FDAFs’ use, FDAFs decide
which advertisements to run in their particular
region.
Beyond this, Ford objects to this Request as overly
broad, unduly burdensome and seeks irrelevant
information in that it seeks information related to 16
years of activity between Ford and Ford dealerships,
it is not specific to any particular dealership, and is
not specific to any particular advertisement. Ford
further objects to this Request as Ford’s contractual
agreements, which may contain financial information, is highly proprietary and confidential, and
the dissemination of such information could cause
competitive harm to Ford. In addition, it is not
relevant to establishing whether this Court has
personal jurisdiction (general or specific) over Ford
in this case and it seeks information unrelated to the
subject vehicle (a 1994 Ford Crown Victoria), the
Plaintiff, or the underlying claims in this lawsuit.
6. Produce a copy of any advertisement, whether
video, printed, or audio, that includes the word
“Minnesota” and was created or paid for in whole or
part by Ford Motor Company.

89
RESPONSE: Ford will search for and produce, if
located, copies of English-language national print,
digital, and video advertising that it has received
from its national advertising agency from 2011-2016
that include the word “Minnesota.” Ford will also
search for and produce showroom brochures from
2011-2016 model years that contain the word “Minnesota.” Ford otherwise incorporates by reference its
Response to Request to Produce No. 5, herein.
Beyond this, Ford objects to this Request because it
is overly broad and unduly burdensome in that it
seeks advertisements for an unspecified period of
time, and is not specific to any vehicle or timeframe.
In addition, it is not relevant to establishing whether
this Court has personal jurisdiction (general or
specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit.
BOWMAN AND
BROOKE LLP
December 12 , 2016

/s/ Michael R. Carey
Michael R. Carey (MN
#0388271)
Scholastica N.S. Baker
(MN #0396369)
150 South Fifth Street,
Suite 3000
Minneapolis, Minnesota
55402
Tel: (612) 339-8682
Fax: (612) 672-3200

90
ATTORNEYS FOR
DEFENDANT
FORD MOTOR
COMPANY

91
STATE OF MINNESOTA
COUNTY OF TODD DISTRICT COURT
SEVENTH JUDICIAL DISTRICT
Case Type: Product Liability
___________
ADAM BANDEMER,
Plaintiff,
v.
FORD MOTOR COMPANY, ERIC HANSON
& GREG HANSON,
Defendants.
___________
Court File No.: 77-CV-16-1025
___________
Filed January 5, 2017
___________
DECLARATION OF HOWARD E. SLATER IN
SUPPORT OF FORD MOTOR COMPANY’S
MOTION TO DISMISS
___________
I, Howard E. Slater, hereby state and declare as
follows pursuant to 28 U.S.C. § 1746:
1.

My name is Howard E. Slater. I am 66 years of
age and have personal knowledge of each fact
stated in this declaration. If called as a witness, I could and would competently testify to
the facts contained herein.

2.

I have been employed by Ford Motor Company
(“Ford”) since June 1972. Since March 1995, I
have worked in Ford’s Automotive Safety Of-

92
fice as a Design Analysis Engineer. Before
that, beginning in March 1989, I worked in
Ford’s Car Product Development group as a
Product Planning Specialist. Before that, I
served in various other engineering and product development roles at Ford.
3.

Having served in various design and engineering roles at Ford, I have knowledge of where
Ford designed the 1994 Crown Victoria. Ford’s
design and engineering decisions with respect
to the subject 1994 Crown Victoria, in particular, as it relates to its front passenger restraint system, were made in Michigan.

I declare under penalty of perjury that the foregoing is true and correct to the best of my knowledge.
Executed on this 3rd day of January, 2017.
/s Howard E. Slater____

93
STATE OF MINNESOTA
COUNTY OF TODD DISTRICT COURT
SEVENTH JUDICIAL DISTRICT
Case Type: Product Liability
___________
Court File No.: 77-CV-16-1025
___________
ADAM BANDEMER,
Plaintiff,
v.
FORD MOTOR COMPANY, ERIC HANSON & GREG
HANSON,
Defendants.
___________
Court File No.: 77-CV-16-1025
___________
Filed January 5, 2017
___________
DECLARATION OF MICHAEL DeYOUNG IN
SUPPORT OF FORD MOTOR COMPANY’S
MOTION TO DISMISS
___________
I, Michael DeYoung, hereby state and declare as
follows pursuant to 28 U.S.C. § 1746:
1.

My name is Michael DeYoung. I am over 18
years of age and have personal knowledge of
each fact stated in this declaration. If called as
a witness, I could and would competently testify to the facts contained herein.

94
2.

I have been employed by Ford Motor Company
(“Ford”) in the US Retail Operations Department of the Marketing and Sales and Service
Division. My job title is Retail Network Operations Manager. My responsibilities involve
ensuring franchising policies and procedures
are adhered to while maintaining contractual
records for all active franchised Ford and Lincoln dealers in the United States. By virtue of
my position, I am familiar with Ford’s business operations in the United States.

3.

Ford is in the business of designing and manufacturing new cars and trucks.

4.

Ford is incorporated in the State of Delaware
and has its principal place of business in
Dearborn, Michigan.

5.

According to Ford's records, the 1994 Ford
Crown Victoria, VIN 2FALP73WXRX136741
described in Plaintiffs Complaint was assembled in December 1993 at Ford's St. Thomas
Assembly plant located in Ontario, Canada.
Ford's records also reflect that the subject vehicle was ordered by and shipped to Eide Ford
Lincoln, an independently-owned Ford dealership located in Bismarck, North Dakota.

6.

Ford does not directly engage in servicing Ford
vehicles in Minnesota. These activities are
conducted exclusively by independent dealers,
none of which is a corporate affiliate of Ford.
According to Ford's records, all dealership
warranty repair performed by Ford independently-owned dealerships on the subject

95
vehicle, took place in North Dakota and Arizona.
7.

Upon appointment of each dealership, the
owner and operator must agree to the standard provisions of the Ford Sales and Service
Agreement. Each Ford Sales and Service
Agreement refers to Ford Motor Company as
the "Company," and includes the following
paragraph:
DEALER NOT AGENT OF THE
COMPANY
14. This agreement does not in any way
create the relationship of principal and
agent between the Company and the
Dealer and under no circumstances
shall the Dealer be considered to be an
agent of the Company. The Dealer shall
not act or attempt to act, or represent
himself, directly or by implication, as
agent of the Company or in any manner
assumer or create any obligation on behalf or in the name of the Company.

I declare under penalty of perjury that the foregoing is true and correct to the best of my knowledge.
Executed on this 3 day of January, 2017.
/s Michael DeYoung

96
STATE OF MINNESOTA
COUNTY OF TODD DISTRICT COURT
SEVENTH JUDICIAL DISTRICT
Case Type: Product Liability
___________
ADAM BANDEMER,
Plaintiff,
v.
FORD MOTOR COMPANY, ERIC HANSON
& GREG HANSON,
Defendants.
___________
Court File No.: 77-CV-16-1025
___________
Filed January 5, 2017
___________
DECLARATION OF MICHAEL R. CAREY IN
SUPPORT OF FORD MOTOR COMPANY’S
MOTION TO DISMISS
___________
I, Michael R. Carey, hereby state and declare as
follows pursuant to 28 U.S.C. § 1746:
1. My name is Michael R. Carey. I work in the
Minneapolis, Minnesota office of Bowman and
Brooke LLP and am one of the attorneys for Ford
Motor Company (“Ford”) in this case. If called as a
witness, I could and would competently testify to the
facts contained herein.

97
2. Attached hereto as Exhibit A is a true and
correct copy of Ford’s Answers to Plaintiff’s Jurisdictional Interrogatories with signed verification.
3. Attached hereto as Exhibit B is a true and
correct copy of a Carfax Vehicle History Report for
the
subject
1994
Crown
Victoria,
VIN
2FALP73WXRX136741.
I declare under penalty of perjury that the foregoing is true and correct to the best of my knowledge.
Executed on this 5th day of January, 2017.
/s Michael R. Carey

98
DECLARATION OF MICHAEL R. CAREY –
EXHIBIT A
___________
STATE OF MINNESOTA
COUNTY OF TODD DISTRICT COURT
SEVENTH JUDICIAL DISTRICT
Case Type: Product Liability
___________
ADAM BANDEMER,
Plaintiff,
v.
FORD MOTOR COMPANY, ERIC HANSON
& GREG HANSON,
Defendants.
___________
Court File No.: 77-CV-16-1025
___________
FORD MOTOR COMPANY’S ANSWERS AND
OBJECTIONS TO PLAINTIFF’S FIRST SET OF
JURISDICTIONAL INTERROGATORIES
___________
Defendant Ford Motor Company (“Ford”), by and
through counsel, submits its Answers and objections
to Plaintiff’s First Set of Jurisdictional Interrogatories as follows:
PRELIMINARY STATEMENT
Ford provides these Answers subject to and without
waiving its jurisdictional objections set forth in
Ford’s forthcoming Motion to Dismiss for Lack of

99
Personal Jurisdiction (“Motion to Dismiss”), which
will be heard on February 3, 2017, specifically that
this Court does not have personal jurisdiction over
Ford in this case. In particular, Ford is not “at home”
in Minnesota for purposes of general jurisdiction
because (1) Ford is incorporated in Delaware and (2)
its principal place of business is in Michigan. Further, Ford is not subject to specific jurisdiction
because this suit does not arise from any Ford conduct in Minnesota. Plaintiff’s vehicle was not manufactured or first sold by Ford in Minnesota, and Ford
had nothing to do with the vehicle’s entry into the
State. Plaintiff’s vehicle was also not designed by
Ford in Minnesota. Ford did not ship the vehicle to
Minnesota. The subject Crown Victoria was assembled at Ford’s St. Thomas Assembly plant located in
Ontario, Canada, then later sold to an independently-owned Ford dealership in Bismarck, North Dakota. By providing certain information in response to
Plaintiffs discovery, Ford does not concede that such
information is relevant to the inquiry regarding
whether this Court has personal jurisdiction over
Ford in this case.
These Answers are made solely for the purpose of
this action. Ford has not completed its investigation
of the facts relating to this matter and discovery is
continuing. Accordingly, the following Answers are
based upon, and therefore necessarily limited by, the
records and information still in existence, presently
recollected and thus far discovered in the course of
preparing these responses. Ford reserves the right to
produce at trial or at any hearing on Ford’s challenge
to personal jurisdiction and make reference to any
evidence, facts, documents or information not yet

100
discovered, or the relevance of which has not yet
been identified, by Ford or its counsel.
Ford does not stipulate or otherwise admit that
documents and other materials are deemed authentic, relevant or admissible merely because such
materials were produced by Ford in this litigation.
INTERROGATORIES
1. How many new Ford vehicles were sold annually in Minnesota for the following years: 2013, 2014,
2015.
ANSWER: Ford sold the following approximate
number of new vehicles to Ford dealerships in Minnesota in the following calendar years:
2013: 68,983
2014: 66,542
2015: 63,669
Ford also sold the following approximate number of
new vehicles to dealerships in the United States for
the same time period:
2013: 2,611,199
2014: 2,449,268
2015: 2,680,258
Although Ford answered this Interrogatory, Ford
does not agree it is relevant to establishing whether
this Court has personal jurisdiction (general or
specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiffs or the underlying
claims in this lawsuit. Further, Ford notes that this
Answer is limited to vehicles sold by Ford to dealerships and not sold by dealerships. While such infor-

101
mation may be available to Ford from a third-party
vendor, such as IHS Automotive (formerly R.L. Polk),
it is subject to a licensing agreement and Ford is
prohibited from disclosing it. Accordingly, Ford
objects to this Interrogatory to the extent Plaintiff
seeks additional or different information beyond
which Ford provided above.
2. How many vehicles did Ford Motor Company
sell to dealerships located in Minnesota for the
following years: 2013, 2014, 2015.
ANSWER: Ford incorporates by reference its Answer and objections to Interrogatory No. 1, herein.
3. How many 1994 Ford Crown Victorias were
sold by Ford Motor Company to dealerships located
in Minnesota.
ANSWER: Ford sold approximately 2,100 1994
model year Ford Crown Victoria vehicles to dealerships in Minnesota. Ford also sold approximately
54,424 1994 model year Ford Crown Victoria vehicles
to dealerships in the United States.
Although Ford responded to this Interrogatory,
Ford does not agree it is relevant to establishing
whether this Court has personal jurisdiction (general
or specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit.
4. How many Ford vehicles are registered in
Minnesota.

102
ANSWER: Ford refers Plaintiff to the Minnesota
Department of Public Safety, which may maintain
information responsive to this Interrogatory. To the
extent Plaintiff seeks vehicle registration data that
may be available to Ford from a third-party vendor,
such as IHS Automotive (formerly R.L. Polk), such
information could be used to estimate the number of
Ford vehicles registered in Minnesota. Further,
although Ford may receive certain registration
information from IHS Automotive, it is subject to a
licensing agreement and Ford is prohibited from
disclosing it. Accordingly, Ford objects to this Interrogatory to the extent Plaintiff seeks additional or
different information beyond which Ford provided
above.
Ford also objects to this Interrogatory as overly
broad, unduly burdensome, and seeks irrelevant
information, particularly in that it is not limited to a
reasonable or relevant time frame. In addition, it is
not relevant to establishing whether this Court has
personal jurisdiction (general or specific) over Ford
in this case and it seeks information unrelated to the
subject vehicle (a 1994 Ford Crown Victoria), the
Plaintiff, or the underlying claims in this lawsuit.
5. How many Ford franchised dealerships exist
in Minnesota.
ANSWER: There are currently 84 franchised Ford
dealerships in Minnesota. Further, in 2016, there
were 3,238 independently-owned Ford dealerships in
the United States. Ford further states that these
dealerships are independently-owned and operated.

103
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame. In
addition, Ford objects to this Interrogatory because it
is not relevant to establishing whether this Court
has personal jurisdiction (general or specific) over
Ford in this case and it seeks information unrelated
to the subject vehicle (a 1994 Ford Crown Victoria),
the Plaintiff, or the underlying claims in this lawsuit.
6. What was the total sales in dollars made to
Minnesota dealerships in 2013, 2014 and 2015.
ANSWER: Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information. In particular, it is not limited
to a reasonable or relevant time frame, it is not
limited to any particular vehicle or product, and it is
not specific to any particular dealership. It is also not
relevant to establishing whether this Court has
personal jurisdiction (general or specific) over Ford
in this case and it seeks information unrelated to the
subject vehicle (a 1994 Ford Crown Victoria), the
Plaintiff, or the underlying claims in this lawsuit.
Ford also objects to this Interrogatory because it
seeks information that is proprietary and commercially sensitive to Ford.
7. How many employees does Ford Motor Company have who maintain a Minnesota business
address.

104
ANSWER: Ford currently has approximately 48
employees located in Minnesota. Ford also notes that
in 2016, Ford employed between 75,000 and 80,000
people in the United States.
Beyond this, Ford objects to this Interrogatory because it is unclear what else Plaintiff is seeking
regarding the request for a business address.
8. Identify all distribution centers and warehouses owned or leased by Ford Motor Company in
Minnesota.
ANSWER: Ford does not have any distribution
centers or warehouses owned or leased by Ford in
Minnesota at this time.
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame. In
addition, Ford objects to this Interrogatory because it
is not relevant to establishing whether this Court
has personal jurisdiction (general or specific) over
Ford in this case and it seeks information unrelated
to the subject vehicle (a 1994 Ford Crown Victoria),
the Plaintiff ,or the underlying claims in this lawsuit.
9. Identify all real property owned or leased by
Ford Motor Company in Minnesota.
ANSWER: Ford currently owns or leases the following properties in Minnesota:
UAW-Ford Motor
Company Technical

966 South
Mississippi

St. Paul

105
Training Facility (additional building on
Twin Cities Assembly
site)

River Blvd.

Twin Cities Assembly
Plant

966 South
Mississippi
River Blvd.

St. Paul

Twin Cities Service
School

1693 Lake
Drive West

Chanhassen

Twin Cities M & S
Regional Office

3600 Minnesota Drive

Edina

Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame. In
addition, Ford objects to this Interrogatory because it
is not relevant to establishing whether this Court
has personal jurisdiction (general or specific) over
Ford in this case and it seeks information unrelated
to the subject vehicle (a 1994 Ford Crown Victoria),
the Plaintiff, or the underlying claims in this lawsuit.
10. Identify all products liability or negligence
actions filed against Ford Motor Company in state or
federal courts in Minnesota alleging an injury caused
by a defective automobile or company part from 2000
to the present.
ANSWER: Ford has identified 87 product liability
lawsuits filed against Ford in Minnesota State or

106
Federal courts alleging an injury caused by an automobile from January 1, 2000 - December 1, 2016.
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome and seeks irrelevant information in that it seeks information related
to 16 years of litigation. In addition, it is not relevant
to establishing whether this Court has personal
jurisdiction (general or specific) over Ford in this
case and it seeks information unrelated to the subject vehicle (a 1994 Ford Crown Victoria), the Plaintiff, or the underlying claims in this lawsuit. Further,
this Interrogatory seeks information that is otherwise publically available. Plaintiff may obtain and
research the public dockets of Minnesota State or
Federal courts to find responsive information.
11. Identify all lawsuits filed by Ford Motor
Company in state or federal courts in Minnesota.
ANSWER: Ford has located one lawsuit filed by
Ford Motor Company in Minnesota State or Federal
Court from 2000-2016: Ford Motor Company v.
Stillwater Ford, Lincoln-Mercury, Inc.
Beyond this, Ford objects to this Interrogatory as
overly broad and seeking irrelevant information in
that it seeks information that is not limited to any
reasonable or relevant time period, is not limited to
any type of allegation or claim and is unrelated to
Plaintiff, his vehicle, or the claims in this lawsuit. In
addition, it is not relevant to establishing whether
this Court has personal jurisdiction (general or
specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying

107
claims in this lawsuit. Further, this Interrogatory
seeks information that is otherwise publically available. Plaintiff may obtain and research the public
dockets of Minnesota State or Federal courts to find
responsive information.
12. How many new Ford vehicles were sold annually in Minnesota for the following years: 2013, 2014,
2015.
ANSWER: Ford sold the following approximate
number of new vehicles to Ford dealerships in Minnesota in the following calendar years:
2013: 68,983
2014: 66,542
2015: 63,669
In addition, Ford refers Plaintiff to the Minnesota
Department of Public Safety, which may maintain
information responsive to this Interrogatory. Ford
also sold the following approximate number of new
vehicles to dealerships in the United States for the
same time period:
2013: 2,611,199
2014: 2,449,268
2015: 2,680,258
Although Ford responded to this Interrogatory,
Ford does not agree it is relevant to establishing
whether this Court has personal jurisdiction (general
or specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiffs or the underlying
claims in this lawsuit. Further, Ford notes that this

108
Answer is limited to vehicles sold by Ford to dealerships and not sold by dealerships. While such information may be available to Ford from a third-party
vendor, such as IHS Automotive (formerly R.L. Polk),
it is subject to a licensing agreement and Ford is
prohibited from disclosing it. Accordingly, Ford
objects to this Interrogatory to the extent Plaintiff
seeks additional or different information beyond
which Ford provided above.
13. How many vehicles did Ford Motor Company
sell to dealerships located in Minnesota for the
following years: 2013, 2014, 2015.
ANSWER: Ford incorporates by reference its Answer and objections to Interrogatory Nos. 1 and 12,
herein.
14. How many 1994 Ford Crown Victorias were
sold by Ford Motor Company to dealerships located
in Minnesota.
ANSWER: Ford incorporates by reference its Answer and objections to Interrogatory No. 3, herein.
15. How many Ford vehicles are registered in
Minnesota.
ANSWER: Ford incorporates by reference its Answer and objections to Interrogatory No. 4, herein.
16. Identify all Ford franchised dealerships which
have existed in Minnesota since 2000.

109
ANSWER: Ford currently has 84 franchised Ford
dealerships in Minnesota:
Dealer
Trade
Name

Dealer Legal
Name

Address

City

Dokmo
Ford

Northfield
Motors, Inc.

1201
South
Highway
3

Northfield

Owatonna
FordLincoln

Owatonna
Motor Company

1001
Hoffman
Drive

Owatonna

Park Rapids Ford

Park Avenue
Automotive,
Inc.

1205 Park
Park RapAvenue
ids
South

Yarmon
Ford, Inc.

Yarmon Ford,
Inc.

640 W
Highway
23

Paynesville

Cavallin,
Inc.

Cavallin, Inc.

630 13th
Street

Pine City

Houston
Ford, Inc.

Houston Ford,
Inc.

2654
State 371
SW

Pine River

Superior/Brookd
ale Ford

Superior/Brookdale
Ford, LLC

9700 56th
Ave.
North

Plymouth

Red Wing
Ford

Red Wing
Automotive
Group, Inc.

3538
Highway
61 West

Red Wing

110
Kohls
Weelborg
Ford, Inc.

Kohls
Weelborg
Ford, Inc.

1307 E
Bridge St

Redwood
Falls

Rochester
Ford

Rochester
Motor Company

4900
Highway
52 North

Rochester

Roseau
County
Ford

Roseau County Ford, Inc.

406 5th
Avenue
SW

Roseau

Midway
Ford
Company

Midway Ford
Company

2777 N
Snelling

Roseville

Tenvoorde
Ford, Inc.

Tenvoorde
Ford, Inc.

185 Roosevelt Rd

Saint
Cloud

Arlen
Krantz
Ford

Arlen Krantz
Ford, Inc.

318 N.
Main

Sandstone

John
Wiese
Ford, Inc.

John Wiese
Ford, Inc.

203 10th
St South

Sauk Centre

Apple
Ford
Shakopee

Shakopee
Valley Ford,
Inc.

1624 WesShakopee
ton Court

Thief
River
Ford, Inc.

Thief River
Ford, Inc.

802 Third
Street
West

Thief River Falls

Sonju
Ford

Sonju Two
Harbors, LLC

893 Scenic Drive

Two Harbors

111
Waconia
Ford
Sales, Inc.

Waconia Ford
Sales, Inc.

235 Hwy
5 West

Waconia

Walker
Ford

Loney Automotive, Inc.

8065
State 371
NW, Box
1090

Walker

Deml
Ford Lincoln, Inc.

Deml Ford
Lincoln, Inc.

2100
Highway
14 West

Waseca

AutoNation Ford
White
Bear Lake

Tousley
Ford, Inc.

1493 East
White
County
Bear Lake
Road E

Mills Ford
of
Willmar

Willmar Motors, LLC

4100
Highway
71 South

Willmar

Higley Ford
Sales Company

1065
Third
Avenue

Windom

Sugar Loaf
Ford, Inc.

1222 W.
Service
Drive

Winona

Higley
Ford
Sales
Company
Sugar
Loaf Ford,
Inc.

112
Marthaler
Ford of
Worthington

Marthaler
Motors of
Worthington,
Inc.

611 Oxford
Street

Worthington

Zumbrota
Ford

Zumbrota
Ford Sales,
LLC

1660
Main
Street

Zumbrota

Bloomington Lincoln

Bloomington
Lincoln Mercury, Inc.

1001 Clover Drive

Bloomington

Krenzen
Lincoln,
Inc.

Krenzen Lincoln, Inc.

2500 Mall
Drive

Duluth

Adamson
Motors,
Inc.

Adamson
Motors, Inc.

4800
Highway
52 North

Rochester

Miller
Lincoln

Miller Lincoln-Nissan
Inc.

2930 2nd
Street
South

Saint
Cloud

White
Bear Lincoln, Inc.

White Bear
LincolnMercury, Inc.

3425
Highway
61 North

St Paul

Further, in 2016, there were 3,238 independently
owned Ford dealerships in the United States. Ford
further states that Ford dealerships are independently-owned and operated.

113
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame (16
years). In addition, it is not relevant to establishing
whether this Court has personal jurisdiction (general
or specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit.
17. Identify any Minnesota Ford dealership with
which Ford had any advertising fund agreement
with that dealership or otherwise paid for some of
the local advertising costs that the dealership incurs,
from 2000 to the present.
ANSWER: Ford refers Plaintiffs to the Sales and
Service Agreement standard provisions, which
contains information regarding responsibilities
related to vehicles, including sales and advertising.
Ford further states that regional advertising is
directed by 37 different Ford Dealer Advertising
Funds (“FDAFs”). FDAFs are run by boards composed of representatives from independently owned
and operated Ford dealerships, not Ford employees.
While Ford may provide some creative content for
the FDAFs’ use, FDAFs decide which advertisements
to run in their particular region. Ford further states
that, in certain circumstances, it may refund or
reimburse dealer incurred marketing expenses.
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not

114
limited to a reasonable or relevant time frame (16
years) and is not specific to any particular dealership
or to any particular advertisement.
In addition, it
is not relevant to establishing whether this Court
has personal jurisdiction (general or specific) over
Ford in this case and it seeks information unrelated
to the subject vehicle (a 1994 Ford Crown Victoria),
the Plaintiff, or the underlying claims in this lawsuit.
18. Identify any Minnesota Ford dealership
which has had access to or has contributed to the
Global Common Quality Indicatory System (“CQIS”
or “GCQIS”).
ANSWER: Ford dealerships, throughout the United
States and in Minnesota, have or had access to or
has contributed to CQIS or GCQIS, and/or may
access those databases or applications.
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame. In
addition, Ford objects to this Interrogatory because it
is not relevant to establishing whether this Court
has personal jurisdiction (general or specific) over
Ford in this case and it seeks information unrelated
to the subject vehicle (a 1994 Ford Crown Victoria),
the Plaintiff, or the underlying claims in this lawsuit.
19. Identify any Minnesota Ford dealership
which has had access to or has contributed to the

115
Master Owner Relation System (“MORS” or “MORS
II” or “MORS III”)
ANSWER: The FMC360 application has replaced
and contains records formerly maintained in Ford’s
Master Owner Relations System or “MORS.” Ford
states that dealerships, including those in Minnesota, may access FMC360. Ford dealerships, including
those in Minnesota, may access or contribute to FMC
360 (formerly MORS).
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame and it
is not specific to any particular dealership. In addition, Ford objects to this Interrogatory because it is
not relevant to establishing whether this Court has
personal jurisdiction (general or specific) over Ford
in this case and it seeks information unrelated to the
subject vehicle (a 1994 Ford Crown Victoria), the
Plaintiff, or the underlying claims in this lawsuit.
20. Identify any Minnesota Ford dealership
which has had access to or has contributed to the
Customer Data Link (“CuDL”).
ANSWER: The FMC360 application has replaced
and contains records formerly maintained in Ford’s
Master Owner Relations System or “MORS,” and
Customer Data Link (“CuDL”). Ford states that Ford
dealerships, including those in Minnesota, may
access or contribute to FMC360.
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not

116
limited to a reasonable or relevant time frame and it
is not specific to any particular dealership. It is not
relevant to establishing whether this Court has
personal jurisdiction (general or specific) over Ford
in this case and it seeks information unrelated to the
subject vehicle (a 1994 Ford Crown Victoria), the
Plaintiff, or the underlying claims in this lawsuit.
21. Identify any Minnesota Ford dealership
which has had access to or has contributed to OASIS
or FORDSTAR.
ANSWER: Ford states that Ford dealerships,
including those in Minnesota, may access or contribute to the OASIS or FORDSTAR databases or applications.
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame and is
not specific to any particular dealership. In addition,
it is not relevant to establishing whether this Court
has personal jurisdiction (general or specific) over
Ford in this case and it seeks information unrelated
to the subject vehicle (a 1994 Ford Crown Victoria),
the Plaintiff, or the underlying claims in this lawsuit.
22. Identify any Minnesota Ford dealership website that Ford participated in creating, maintaining,
or running.
ANSWER: Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking

117
irrelevant information. It seeks information related
to an unlimited number of years of activity between
Ford and Ford dealerships, it is not specific to any
particular dealership, and it does not reference any
specific website.
23. What was the total sales in dollars made to
Minnesota dealerships in 2013, 2014 and 2015.
ANSWER: Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information. In particular, it is not limited
to a reasonable or relevant time frame, it is not
limited to any particular vehicle, and it is not specific
to any particular dealership. Ford also objects to this
Interrogatory because it seeks information that is
proprietary and commercially sensitive to Ford. In
addition, Ford objects to this Interrogatory because it
is not relevant to establishing whether this Court
has personal jurisdiction (general or specific) over
Ford in this case and it seeks information unrelated
to the subject vehicle (a 1994 Ford Crown Victoria),
the Plaintiff, or the underlying claims in this lawsuit. Ford also objects to this Interrogatory because it
seeks information that is proprietary and commercially sensitive to Ford.
24. How many employees does Ford Motor Company have who maintain a Minnesota business
address?
ANSWER: Ford currently has approximately 48
employees located in Minnesota. Ford also notes that
in 2016, Ford employed between 75,000 and 80,000
people in the United States.

118
Beyond this, Ford objects to this Interrogatory because it is unclear what else Plaintiff is seeking
regarding the request for a business address.
25. Identify all distribution centers and warehouses owned or leased by Ford Motor Company in
Minnesota.
ANSWER: Ford does not have any distribution
centers or warehouses owned or leased by Ford in
Minnesota at this time.
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame. In
addition, Ford objects to this Interrogatory because it
is not relevant to establishing whether this Court
has personal jurisdiction (general or specific) over
Ford in this case and it seeks information unrelated
to the subject vehicle (a 1994 Ford Crown Victoria),
the Plaintiff, or the underlying claims in this lawsuit.
26. Identify all real property owned or leased by
Ford Motor Company in Minnesota.
ANSWER: Ford currently owns or leases the
following properties in Minnesota:
UAW-Ford Motor
Company Technical
Training Facility
(additional building
on Twin Cities
Assembly site)

966 South Mississippi River
Blvd.

St. Paul

119
Twin Cities Assembly Plant

966 South Mississippi River
Blvd.

St. Paul

Twin Cities Service
School

1693 Lake
Drive West

Chanhassen

Twin Cities M & S
Regional Office

3600 Minnesota Edina
Drive

Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame. In
addition, Ford objects to this Interrogatory because it
is not relevant to establishing whether this Court
has personal jurisdiction (general or specific) over
Ford in this case and it seeks information unrelated
to the subject vehicle (a 1994 Ford Crown Victoria),
the Plaintiff, or the underlying claims in this lawsuit.
27. Please state the dollar amount spent annually
by Ford Motor Company in advertising specific to or
targeted to the Minnesota market between 2000 and
the present.
ANSWER: Ford designs and directs the substance of
advertising for Ford vehicles in nationally-based
television, print, and online media, which may reach
the Minnesota market as well as other U.S. markets.
Ford also admits that, in some circumstances, Ford
may send direct mail to consumers related to various
Ford products and/or services, which may reach the

120
Minnesota market as well as throughout the United
States. Ford further states that regional advertising
is directed by 37 different Ford Dealer Advertising
Funds (“FDAFs”). FDAFs are run by boards composed of representatives from independently owned
and operated Ford dealerships, not Ford employees.
While Ford may provide some creative content for
the FDAFs’ use, FDAFs decide which advertisements
to run in their particular region.
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame (16
years). In addition, it is not relevant to establishing
whether this Court has personal jurisdiction (general
or specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit. Ford also objects to this
Interrogatory because it seeks information that is
proprietary and commercially sensitive to Ford.
28. How many pieces of mail has Ford sent to
Minnesota residents annually between 2010 to the
present.
ANSWER: Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information. It is not limited to a reasonable or relevant time frame (16 years), to a particular
resident or to particular subject matter, product, or
service. In addition, it is not relevant to establishing
whether this Court has personal jurisdiction (general
or specific) over Ford in this case and it seeks infor-

121
mation unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit.
29. Identify all products liability or negligence
actions filed against Ford Motor Company in state or
federal courts in Minnesota alleging an injury caused
by a defective automobile or company part from 2000
to the present.
ANSWER: Ford has identified 87 product liability
lawsuits filed against Ford in Minnesota State or
Federal courts alleging an injury caused by an automobile from January 1, 2000 - December 1, 2016.
Beyond this, Ford objects to this Interrogatory as
overly broad, unduly burdensome and seeks irrelevant information in that it seeks information related
to 16 years of litigation. In addition, it is not relevant
to establishing whether this Court has personal
jurisdiction (general or specific) over Ford in this
case and it seeks information unrelated to the subject vehicle (a 1994 Ford Crown Victoria), the Plaintiff, or the underlying claims in this lawsuit. Further,
this Interrogatory seeks information that is otherwise publically available. Plaintiff may obtain and
research the public dockets of Minnesota State or
Federal courts to find responsive information.
30. Identify all lawsuits filed by Ford Motor
Company in state or federal courts in Minnesota.
ANSWER: Ford has located one lawsuit filed by
Ford Motor Company in Minnesota State or Federal

122
Court from 2000-2016: Ford Motor Company v.
Stillwater Ford, Lincoln-Mercury, Inc.
Beyond this, Ford objects to this Interrogatory as
overly broad and seeking irrelevant information in
that it seeks information that is not limited to any
reasonable or relevant time period, is not limited to
any type of allegation or claim and is unrelated to
Plaintiff, his vehicle or the claims in this lawsuit. In
addition, it is not relevant to establishing whether
this Court has personal jurisdiction (general or
specific) over Ford in this case and it seeks information unrelated to the subject vehicle (a 1994 Ford
Crown Victoria), the Plaintiff, or the underlying
claims in this lawsuit. Further, this Interrogatory
seeks information that is otherwise publically available. Plaintiff may obtain and research the public
dockets of Minnesota State or Federal courts to find
responsive information.
31. Identify all lawsuits in which Ford removed
the case to federal court in Minnesota upon an
assertion that the federal court in Minnesota had
jurisdiction.
ANSWER: Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame or to
any particular lawsuit, allegation or claim. It is not
relevant to establishing whether this Court has
personal jurisdiction (general or specific) over Ford
in this case and it seeks information unrelated to the
subject vehicle (a 1994 Ford Crown Victoria), the
Plaintiff, or the underlying claims in this lawsuit.

123
Further, this Interrogatory seeks information that is
otherwise publically available. Plaintiff may obtain
and research the public dockets of Minnesota state or
federal courts to find responsive information.
32. Identify all lawsuits in which Ford sought
transfer of the case to a court in Minnesota.
ANSWER: Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame or to
any particular lawsuit, allegation or claim. It is not
relevant to establishing whether this Court has
personal jurisdiction (general or specific) over Ford
in this case and it seeks information unrelated to the
subject vehicle (a 1994 Ford Crown Victoria), the
Plaintiff, or the underlying claims in this lawsuit.
Further, this Interrogatory seeks information that is
otherwise publically available. Plaintiff may obtain
and research the public dockets of Minnesota state or
federal courts to find responsive information.
33. Identify all lawsuits in Minnesota in which
Ford sought any relief as a cross-claimant or counterclaimant.
ANSWER: Ford objects to this Interrogatory as
overly broad, unduly burdensome, and seeking
irrelevant information, particularly in that it is not
limited to a reasonable or relevant time frame or to
any particular lawsuit, claim or allegation. It is not
relevant to establishing whether this Court has
personal jurisdiction (general or specific) over Ford
in this case and it seeks information unrelated to the

124
subject vehicle (a 1994 Ford Crown Victoria), the
Plaintiff, or the underlying claims in this lawsuit.
Further, this Interrogatory seeks information that is
otherwise publically available. Plaintiff may obtain
and research the public dockets of Minnesota state or
federal courts to find responsive information.
BOWMAN AND
BROOKE LLP
December 12 , 2016

/s/ Michael R. Carey
Michael R. Carey (MN
#0388271)
Scholastica N.S. Baker
(MN #0396369)
150 South Fifth Street,
Suite 3000
Minneapolis, Minnesota
55402
Tel: (612) 339-8682
Fax: (612) 672-3200
ATTORNEYS FOR
DEFENDANT FORD
MOTOR COMPANY

125
Adam Bandemer v. Ford Motor Company, et al.
Todd County District Court Case No. 77-CV-161025
AFFIDAVIT OF SERVICE
STATE OF MINNESOTA

)
) ss.

COUNTY OF HENNEPIN

)

Kelly M. Mills, being first duly sworn, deposes and
says that on the 12th day of December 2016, she
served the attached:
1. Ford Motor Company’s Answers and Objections to Plaintiff’s First Set of Jurisdictional Interrogatories;
2. Ford Motor Company’s Response and Objections to Plaintiff’s First Set of Jurisdictional Request
for Production;
3. Ford Motor Company’s Response to Plaintiff’s
First Set of Jurisdictional Request for Admissions;
4. Copy of Complaint in Ford Motor Company v.
Stillwater Ford, Lincoln-Mercury, Inc., Case No.
0:09-cv-00052-JRT-RLE;
Upon:
Kyle W. Farrar
William R. Ogden
Kaster, Lynch, Farrar &
Ball, LLP
1010 Lamar, Suite 1600
Houston, Texas 77002

Steven D. Lastovich
Steven D. Lastovich, Ltd.
13073 Evergreen Drive
PO Box 2906
Baxter, Minnesota 56425

Owen L. Sorenson,
#103512

Michael I. Kiedrowski
Godfrey & Fox

126
Richard N. Newcome and
R.J. Newcome, P.A.
1360 Energy Park Drive,
Suite 150
St. Paul, MN 55108

P.O. Box 258829
Oklahoma
City,
73125-8829

OK

by placing a true and correct copy directed to said
individuals at the addresses listed above in the U.S.
mail at 150 South Fifth Street, Minneapolis, Minnesota 55402.
/s/ Kelly M. Mills_
Kelly M. Mills
Subscribed and sworn to before me
this 12th day of December, 2016.
/s/ Debra A. Palmquist____
Notary Public
DEBRA A. PALMQUIST
NOTARY PUBLIC – MINNESOTA
MY COMMISSION EXPIRES 01/31/20

127
STATE OF MICHIGAN
COUNTY OF WAYNE

)
) ss.
)

JASON PRAGER , being duly sworn, deposes
and says that the deponent is an authorized agent of
Ford Motor Company, and that the deponent verifies
the foregoing Ford Motor Company’s Answers and
Objections to Plaintiffs First Set of Jurisdictional
Interrogatories for and on behalf of Ford Motor
Company and is duly authorized so to do; that the
matters stated therein are not within the personal
knowledge of the deponent; that the facts stated
therein have been assembled by authorized employees and counsel of Ford Motor Company, and the
deponent is informed that the facts stated therein
are true.
/s/ Jason B. Prager__
JASON PRAGER
Subscribed and sworn to before me this
_13__ day of ____Dec.______, 2016
_/s/ Linda G. Bingham_
LINDA G. BINGHAM
NOTARY PUBLIC-STATE OF MICHIGAN
COUNTY OF WAYNE
My Commission Expires August 15, 2017
Acting in the County of Wayne

128
DECLARATION OF MICHAEL R. CAREY –
EXHIBIT B
___________
CARFAX® Vehicle History ReportTM
An independent company established in 1986
Vehicle Information:
1994 FORD CROWN VICTORIA
VIN: 2FALP73WXRX136741
SEDAN 4 DR
4.6L V8 FI SOHC 32V
GASOLINE
REAR WHEEL DRIVE

Accident / Damage reported

CARFAX Report Provided By:
Bowman & Brooke
150 S 5th St Ste 3000
Minneapolis, MN 55402
612-672-3266

16 Detailed records available

5 Previous owners
Personal vehicle
Last owned in Minnesota

24 Last reported odometer
reading

This CARFAX Vehicle History Report is based only
on information supplied to CARFAX and available as
of 10/6/16 at 4:50:04 PM (EDT). Other information
about this vehicle, including problems, may not have
been reported to CARFAX. Use this report as one
important tool, along with a vehicle inspection and
test drive, to make a better decision about your next
used car.
Owners 1-3

Owners 4

Owners 5

1994

2011

2013

Type of owner

Personal

Personal

Personal

Estimated length of
ownership

17 yrs. 1
mo.

1 yrs. 5 mo.

3 yrs. 4 mo.

North

Minnesota

Minnesota

CARFAX Ownership
History
The number of owners is
estimated
Year purchased

Owned in the following

129
states/provinces

Dakota

Estimated miles driven per
year
Last reported odometer
reading

-

-

-

24

-

-

CARFAX Title
History
CARFAX guarantees
the information in this
section

Owners 1-3

Owner 4

Owner 5

Salvage / Junk / Rebuilt
/ Fire / Flood / Hail /
Lemon

Guaranteed
No Problem

Guaranteed
No Problem

Guaranteed
No Problem

Not Actual Mileage /
Exceeds Mechanical
Limits

Guaranteed
No Problem

Guaranteed
No Problem

Guaranteed
No Problem

CARFAX GUARANTEED - None of these major title problems were
reported by a state Department of Motor Vehicles (DMV). If you find
that any of these title problems were reported by a DMV and not
included in this report, CARFAX will buy this vehicle back. Register /
View Terms

Owners 1-3

Owner 4

Owner 5

Total Loss
No total loss reported to
CARFAX.

No Issues
Reported

No Issues
Reported

No Issues
Reported

Structural Damage
No structural damage
reported to CARFAX.

No Issues
Reported

No Issues
Reported

No Issues
Reported

Airbag Deployment
No airbag deployment
reported to CARFAX.

No Issues
Reported

No Issues
Reported

No Issues
Reported

Odometer Check
No indication of an odome-

No Issues
Indicated

No Issues
Indicated

No Issues
Indicated

CARFAX Additional
History
Not all accidents / issues are
reported to CARFAX.

130
ter rollback.
Accident / Damage
Accident reported on
01/08/2015

No Issues
Reported

No Issues
Reported

Accident
Reported

Manufacturer Recall
A current list of recalls is
available at Ford Motor
Company

No Recalls
Reported

No Recalls
Reported

No Recalls
Reported

CARFAX Detailed History
Owner 1
Purchased:
1994
Type:
Personal
Where:
North
Dakota
Est. length
owned:
10/10/94 10/10/04
(10 years)

Date:
12/21/1993

Mileage:

Source:
NICB

Comments:
Vehicle manufactured and
shipped to
original dealer

10/10/1994

24

North
Dakota
Motor
Vehicle
Dept.
Ruso,
ND

Title or registration issued

Title
#3644746
Owner 2
Purchased:
2004
Type:
Personal
Where:
North
Dakota
Est. length
owned:
10/10/04 8/29/08 (3
yrs. 10 mo.)

Date:
10/10/2004

Mileage:

Source:
North
Dakota
Motor
Vehicle
Dept.
Minot, ND

First owner
reported
Titled or
registered as
personal vehicle

Comments:
Title or registration issued
New owner
reported

Title
#3644746
10/11/2005

North
Dakota
Motor
Vehicle
Dept.
Minot, ND

Title or registration issued

131
Title
#3644746
07/25/2007

North
Dakota
Motor
Vehicle
Dept.
Minot, ND

Title or registration issued

Title
#3644746
Owner 3
Purchased:
2008
Type:
Personal
Where:
North
Dakota
Est. length
owned:
8/29/08 11/16/11 (3
yrs. 2 mo.)

Date:
08/29/2008

Mileage:

Source:
North
Dakota
Motor
Vehicle
Dept.
Minot, ND

Comments:
Title or registration issued
New owner
reported

Title
#3644746
10/03/2008

North
Dakota
Motor
Vehicle
Dept.
Minot, ND

Title or registration issued

Title
#3644746
07/29/2009

North
Dakota
Motor
Vehicle
Dept.
Phoenix,
AZ
Title
#3644746

10/02/2009

North
Dakota
Motor
Vehicle
Dept.

Title or registration issued
Registration
updated when
owner moved the
vehicle to a new
location
Title or registration issued

132
Minot, ND
Title
#3644746
08/18/2010

North
Dakota
Motor
Vehicle
Dept.
Minot, ND

Title or registration issued

Title
#3644746

Owner 4
Purchased:
2011
Type:
Personal
Where:
Minnesota
Est. length
owned:
11/16/11 5/14/13 (1
yr. 5 mo.)

Date:
11/16/2011

Mileage:

Source:
Minnesota
Motor
Vehicle
Dept.
Baxter, MN
Title
#H3200V104

07/05/2012

Minnesota
Motor
Vehicle
Dept.
Baxter, MN
Title
#
H3200V104

Owner 5
Purchased:
2013
Type:
Personal

Date:
05/14/2013

Mileage:

Source:
Minnesota
Motor
Vehicle
Dept.

Comments:
Vehicle
purchase
reported
Title or
registration
issued
New owner
reported
Exempt from
odometer
reporting
Vehicle color
noted as
White
Registration
issued or
renewed
Exempt from
odometer
reporting
Vehicle color
noted as
White

Comment
Title issued or
updated
New owner
reported

133
Where:
Minnesota
Est. length
owned:
5/14/13 –
present (3
yrs. 4 mo.)

Browerville,
MN
Title
#C134A0414
08/05/2013

Minnesota
Motor
Vehicle
Dept.
Browerville,
MN
Title
#C134A0414

07/31/2014

Minnesota
Motor
Vehicle
Dept.
Browerville,
MN
Title
#C134A0414

01/08/2015

Minnesota
Damage
Report

Exempt from
odometer
reporting
Vehicle color
noted as
White
Registration
issued or
renewed
Exempt from
odometer
reporting
Vehicle color
noted as
White
Registration
issued or
renewed
Exempt from
odometer
reporting
Vehicle color
noted as
White
Accident
reported
Involving
from impact
with another
motor vehicle
It hit roadway
equipment /
snowplow
Vehicle towed

CARFAX Glossary
Accident / Damage Indicator
CARFAX receives information about accidents in all
50 states, the District of Columbia and Canada.
Different information in a vehicle’s history can
indicate an accident or damage, such as: salvage
auction, fire damage, police-reported accident, crash

134
test vehicle, damage disclosure, collision repair
facility and automotive recycler records. Not every
accident or damage event is reported and not all
reported are provided to CARFAX. Details about the
accident or damage event when reported to CARFAX
(e.g. severity, impact location, airbag deployment)
are included on the Vehicle History Report. CARFAX
recommends you obtain a vehicle inspection from
your dealer or an independent mechanic.


According to the National Safety Council, Injury Facts, 2015 edition, 8% of the 254 million
registered vehicles in the U.S. were involved
in an accident in 2013. Over 74% of these were
considered minor or moderate.



CARFAX depends on many sources for its accident / damage data. CARFAX can only report
what is in our database on 10/6/16 at 4:50:04
PM (EDT). New data will result in a change to
this report.

Minnesota Damage Reports:


Provide an estimate of the extent of damage in
its accident reports for the following:


SEVERE/TOTALED: The vehicle cannot be
driven from the accident scene due to severe damage or an injury. This level of
damage often results in a Salvage or Junk
title.



MODERATE: The accident damage affects
the operation of the vehicle and/or its
parts. Examples include broken windows,
trunk lids, doors, bumpers and tires.



MINOR: The accident damage does not affect the operation of the vehicle. Examples

135
include dented bumpers, fenders, grills and
body panels. This level of accident should
not compromise vehicle safety.



NO DAMAGE: The vehicle was not damaged.

Are required if the estimated damage exceeds
$500

First Owner
When the first owner(s) obtains a title from a Department of Motor Vehicles as proof of ownership.
Ford or Lincoln Mercury Recall
The Ford Motor Company provides Carfax with Field
Service Action and recall information regarding
safety, compliance and emissions programs announced since 2000 for a specific vehicle. For complete information regarding programs or concerns
about this vehicle, please contact a local Ford or
Lincoln Mercury Dealer.
New Owner Reported
When a vehicle is sold to a new owner, the Title must
be transferred to the new owner(s) at a Department
of Motor Vehicles.
Ownership History
CARFAX defines an owner as an individual or business that possesses and uses a vehicle. Not all title
transactions represent changes in ownership. To
provide estimated number of owners, CARFAX
proprietary technology analyzes all the events in a
vehicle history. Estimated ownership is available for
vehicles manufactured after 1991 and titled solely in
the US including Puerto Rico. Dealers sometimes opt
to take ownership of a vehicle and are required to in

136
the following states: Maine, Massachusetts, New
Jersey, Ohio, Oklahoma, Pennsylvania and South
Dakota. Please consider this as you review a vehicle’s
estimated ownership history.
Title Issued
A state issues a title to provide a vehicle owner with
proof of ownership. Each title has a unique number.
Each title or registration record on a CARFAX report
does not necessarily indicate a change in ownership.
In Canada, a registration and bill of sale are used as
proof of ownership.
Follow
Us:
Facebook.com/CARFAX;
ter@CarfaxReports; CARFAX on Google+

Twit-

CARFAX DEPENDS ON ITS SOURCES FOR THE
ACCURACY
AND
RELIABILITY
OF
ITS
INFORMATION.
THEREFORE,
NO
RESPONSIBILITY IS ASSUMED BY CARFAX OR
ITS AGENTS FOR ERRORS OR OMISSIONS IN
THIS REPORT. CARFAX FURTHER EXPRESSLY
DISCLAIMS ALL WARRANTIES, EXPRESS OR
IMPLIED,
INCLUDING
ANY
IMPLIED
WARRANTIES OF MERCHANTABILITY OR
FITNESS FOR A PARTICULAR PURPOSE.
CARFAX®
© 2016 CARFAX, Inc., a unit of IHS Inc. All rights
reserved.
Covered by United States Patent Nos. 7,113,853;
7,778,841;
7,596,512,
8,600,823;
8,595,079;
8,606,648; 7,505,838.
10/6/16 4:50:04 PM (EDT)

